<html>
<title> - LEGISLATIVE HEARING ON H.R. 2721, H.R. 3786, H.R. 6070, H.R. 4255, H.R. 6221, H.R. 6224, H.R. 6225, AND H.R. 6272</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
              LEGISLATIVE HEARING ON H.R. 2721, H.R. 3786,
              H.R. 6070, H.R. 4255, H.R. 6221, H.R. 6224,
                        H.R. 6225, AND H.R. 6272

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

                           Serial No. 110-93

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
43-059 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          Stephanie Herseth Sandlin, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           JERRY MORAN, Kansas
JOHN J. HALL, New York               STEVE SCALISE, Louisiana

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 19, 2008

                                                                   Page
Legislative Hearing on H.R. 2721, H.R. 3786, H.R. 6070, H.R. 
  4255, H.R. 6221, H.R. 6224, H.R. 6225, and H.R. 6272...........     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    34
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    35

                               WITNESSES

U.S. Department of Veterans Affairs, R. Keith Pedigo, Associate 
  Deputy Under Secretary for Policy and Program Management, 
  Veterans Benefits Administration...............................    28
    Prepared statement of Mr. Pedigo.............................    58

                                 ______

American Legion, Joseph C. Sharpe, Jr., Deputy Director, National 
  Economic Commission............................................    20
    Prepared statement of Mr. Sharpe.............................    45
Cardoza, Hon. Dennis A., a Representative in Congress from the 
  State of California............................................     6
    Prepared statement of Congressman Cardoza....................    36
Carter, Hon. John R., a Representative in Congress from the State 
  of Texas.......................................................     7
    Prepared statement of Congressman Carter.....................    37
CTIA--The Wireless Association, Bobby Franklin, Executive Vice 
  President......................................................    12
    Prepared statement of Mr. Franklin...........................    42
Disabled American Veterans, Kerry Baker, Associate National 
  Legislative Director...........................................    19
    Prepared statement of Mr. Baker..............................    43
Filner, Hon. Bob, Chairman, Committee on Veterans' Affairs, a 
  Representative in Congress from the State of California........     3
    Prepared statement of Congressman Filner.....................    35
Lofgren, Hon. Zoe, a Representative in Congress from the State of 
  California.....................................................     4
    Prepared statement of Congresswoman Lofgren..................    36
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................    21
    Prepared statement of Mr. Daley..............................    47
United States Olympic Committee, Charles Huebner, Chief of 
  Paralympics....................................................    10
    Prepared statement of Mr. Huebner............................    39
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    22
    Prepared statement of Mr. Weidman............................    50
Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont........................................................     9
    Prepared statement of Congressman Welch......................    38

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Defense, Hon. Michael L. Dominguez, Principal 
  Deputy Under Secretary of Defense for Personnel and Readiness, 
  statement......................................................    60
U.S. Department of Labor, Hon. Charles S. Ciccolella, Assistant 
  Secretary for Veterans' Employment and Training, statement.....    61
OnPoynt Communications, Dallas, TX, Rebecca Noah Poynter, Owner, 
  and Co-Founder, Military Spouse Business Association, statement    62

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      R. Keith Pedigo, Associate Deputy Under Secretary for 
      Policy and Program Management, Veterans Benefits 
      Administration, U.S. Department of Veterans Affairs, letter 
      dated June 23, 2008, and VA responses......................    64
    Hon. James B. Peake, M.D., Secretary, U.S. Department of 
      Veterans Affairs, to Hon. Stephanie Herseth Sandlin, 
      Chairwoman, Subcommittee on Economic Opportunity, Committee 
      on Veterans' Affairs, letter dated August 18, 2008, 
      transmitting Administration Views for H.R. 6221, H.R. 6225, 
      and H.R. 6272..............................................    65
    Hon. John Boozman, Ranking Member, Subcommittee on Economic 
      Opportunity, Committee on Veterans' Affairs, to Charles 
      Huebner, Chief, U.S. Paralympics, letter dated July 1, 
      2008, and response letter dated October 24, 2008...........    66


              LEGISLATIVE HEARING ON H.R. 2721, H.R. 3786,
              H.R. 6070, H.R. 4255, H.R. 6221, H.R. 6224,
                        H.R. 6225, AND H.R. 6272

                              ----------                              


                        THURSDAY, JUNE 19, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:05 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Hall, and 
Boozman.
    Also Present: Representative Filner.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on pending legislation will come to order.
    I would like to call to the attention of the Subcommittee 
the fact that the Honorable John Carter of Texas has asked to 
submit a written statement for the hearing record on behalf of 
his constituent, Mrs. Rebecca North Poynter. If there is no 
objection, I ask for unanimous consent that her statement be 
entered into the record. Hearing no objection, so entered.
    [The prepared statement of Ms. Poynter appears on p. 62.]
    Ms. Herseth Sandlin. Today, we have eight bills before us 
that seek to authorize the U.S. Department of Veterans Affairs 
(VA) to make a grant to the United States Olympic Committee 
(USOC) to provide and develop activities for servicemembers and 
veterans with physical disabilities; allow military 
servicemembers to terminate certain contracts when called to 
active-duty service or ordered to change permanent duty 
assignment; require the VA to develop and the U.S. Department 
of Defense (DoD) to distribute a compact disk of benefits 
information to servicemembers preparing to depart from the 
military; amend the Servicemembers Civil Relief Act (SCRA) to 
allow a military spouse to claim the same State as the 
servicemember in regards to State and property taxes, and voter 
registration; and reauthorize the Service Members Occupational 
Conversion and Training Act (SMOCTA) 1992.
    Some of you might recall on February 13 of this year, we 
conducted a hearing on expiring programs. In this hearing, we 
received recommendations on ways to improve on the programs and 
expand on veterans' rights. One such recommendation came from 
Mr. Matthew Tully of Tully and Rinckey, LLC, who specializes in 
law under the Uniformed Services Employment and Reemployment 
Rights Act, also known as USERRA. Mr. Tully brought up an 
example of how a servicemember who had sought injunctive relief 
from his employer, but the court denied his request. Mr. Tully 
recommended that the Subcommittee consider amending USERRA to 
allow servicemembers such as the one who is cited to ensure 
equitable relief as available to USERRA victims when the courts 
decide it is appropriate.
    I share the concerns expressed by Mr. Tully and recently 
introduced H.R. 6225, the ``Injunctive Relief for Veterans Act 
of 2008.'' This bill will amend Title 38 by changing ``may'' to 
``shall'' and it is our expectation that more courts will use 
this remedy when deemed appropriate that equitable relief is 
warranted. This legislation is a step in the right direction to 
providing greater protections and safeguards to those who have 
answered the call to duty.
    A second bill that I recently introduced is H.R. 6224, the 
``Pilot College Work Study Programs for Veterans Act of 2008.'' 
This bill contains similar language that I proposed in H.R. 
5684, the ``Veterans Education Improvement Act of 2008,'' which 
would improve existing education for our veterans.
    H.R. 6224 would direct the Secretary of Veterans Affairs to 
conduct a five-year pilot project to expand on existing work-
study activities for veterans. Currently, veterans who qualify 
for work study would be limited to working on VA-related work. 
My bill would allow those veterans the option of working in 
academic departments and student services. This change would 
put them at par with students that qualify for the work-study 
position under programs not administered by the VA.
    Furthermore, this bill would conform to existing PAYGO 
rules by providing for discretionary appropriations.
    I look forward to working with Ranking Member Boozman and 
other Members of the Subcommittee to discuss these two 
legislative proposals and those being considered in today's 
legislative hearing.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 34.]
    Ms. Herseth Sandlin. I now recognize Mr. Boozman for any 
remarks he may have.

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. Today, we will hear 
testimony on eight bills covering diverse issues facing 
veterans and their families. I especially want to thank you for 
including H.R. 6221, a bill that will close a possible loophole 
in VA's disabled veterans business contracting and acquisition 
programs. This is something that we have introduced together. 
Again, I appreciate you bringing it forward.
    I would offer one thought on the bill to reauthorize the 
long-expired Service Members Occupational Training Act, SMOCTA. 
The goal of SMOCTA was to retrain veterans with few or no 
transferable military skills and skills better suited to 
today's job market. This is a worthy goal, and I support it and 
commend our colleague from Vermont for bringing this issue 
before us.
    There are several ways to offer retraining, and I would 
like to explore with you, Madam Chair, and with Mr. Welch 
whether or not it would be more effective to reauthorize SMOCTA 
or take several SMOCTA concepts and use them to expand VA's 
existing on-the-job training, apprenticeship programs for 
recently discharged veterans, and those who have passed their 
eligibility date for VA benefits.
    Given the current awareness of education and training for 
veterans, we may have an opportunity here to put more veterans 
into good jobs. I know that you share those goals, Madam Chair, 
and I look forward to working with you and Mr. Welch and our 
colleagues on the Committee to make that happen. I yield back.
    [The prepared statement of Congressman Boozman appears on
p. 35.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would like to welcome our panelists testifying before the 
Subcommittee today. Joining us is our full Committee Chairman, 
the Honorable Mr. Bob Filner of California, the Honorable Zoe 
Lofgren of California, the Honorable Dennis Cardoza, also of 
California; the Honorable John Carter of Texas.
    Mr. Cardoza. Who would like to live in California.
    Ms. Herseth Sandlin. The Texas cavalry here. And the 
Honorable Peter Welch of Vermont, one of the smaller, less-
populated States well represented here on the Subcommittee. All 
of your full written statements will be made part of the 
hearing record and we welcome all of you to the Subcommittee. 
Thank you for the bills that you have introduced that we are 
considering today.
    Chairman Filner, you are recognized.

STATEMENTS OF HON. BOB FILNER, CHAIRMAN, COMMITTEE ON VETERANS' 
  AFFAIRS, AND A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
CALIFORNIA; HON. ZOE LOFGREN, A REPRESENTATIVE IN CONGRESS FROM 
      THE STATE OF CALIFORNIA; HON. DENNIS A. CARDOZA, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA; HON. 
JOHN R. CARTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
TEXAS; AND HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF VERMONT

                  STATEMENT OF HON. BOB FILNER

    Mr. Filner. Thank you, Madam Chair. I certainly thank you 
and your Ranking Member, Mr. Boozman, for the leadership you 
have shown over the last year and a half. You have been an 
incredibly productive, incisive Subcommittee and we appreciate 
everything you have done.
    I would like to just spend a few minutes on H.R. 4255, the 
``United States Olympic Committee Paralympics Program Act of 
2007.'' For many servicemembers and veterans who have been 
severely injured from service to our country, their 
rehabilitation can be a disheartening experience. Many become 
concerned about having the same quality of life that they had 
prior to their injuries.
    Programs administered by the U.S. Olympic Committee (USOC) 
Paralympic Military Program, can enhance and improve the 
quality of life for these men and women by introducing them to 
an active lifestyle while they heal from their wounds.
    Today, the USOC programs have been providing support for 
severely injured veterans since 2003, introducing them to 
adaptive sport techniques. These opportunities will enable our 
veterans to face their new physical realities and to continue 
living an active lifestyle through adaptive sports.
    We know there is a growing population of veterans who have 
survived serious injuries that would benefit from the good work 
being done by the USOC, and that is why I have introduced this 
bill to support our heroic men and women as they transition 
through this very difficult phase in their lives.
    This bill would authorize the Secretary of Veterans Affairs 
to make a grant to the U.S. Olympic Committee to provide 
Paralympic instruction, competitive activities, and program 
development activities for servicemembers and veterans with 
physical disabilities.
    The purpose of the program is to enhance the rehabilitation 
of current severely injured servicemembers and veterans and to 
reduce the chance of secondary medical conditions. Up to now, 
more than 1,200 injured veterans have been introduced to 
Paralympic sports as a result of these training programs, but 
much more needs to be done in order to continue to provide this 
dynamic rehabilitative environment.
    I hope you can support this bill. I am sure many of you 
have seen what getting involved in these programs can do for 
the self-esteem, the sense of well-being, the sense of a future 
for these veterans. It is one of those programs we visit that 
moves us. I know it moves us to tears sometimes to see how 
these men and women have overcome some very serious injuries. 
We know how to not only keep them alive on the battlefield, but 
how to evacuate them quickly and get superior help, whether in 
theater or in Germany. But that means there is a lot of healing 
and rehabilitation work to do.
    I haven't seen a program that does more for their sense of 
well-being than this program, and I hope that we, and the 
Department of Veterans Affairs, can aid the U.S. Olympic 
Committee in this effort. I think you are going to hear more 
about that in later testimony.
    They do an incredible job. When you see these veterans have 
a sense of confidence and a sense of their own future, it is 
really remarkable. Thank you.
    [The prepared statement of Congressman Filner appears on
p. 35.]
    Ms. Herseth Sandlin. Thank you, Chairman Filner, for 
working so closely with this Subcommittee and your valuable 
leadership on the full Committee. We have had the opportunity 
in earlier hearings before the Subcommittee, to hear from some 
of those who benefited from these important programs, and we 
thank you for introducing this important bill.
    Ms. Lofgren, thank you for being here at the Subcommittee. 
You are now recognized.

                 STATEMENT OF HON. ZOE LOFGREN

    Ms. Lofgren. Thank you so much, Chairman Herseth Sandlin 
and Ranking Member Boozman. I appreciate the opportunity to 
testify on behalf of the bill I have introduced, the 
``Servicemembers Telecom Relief Act.''
    A constituent call first alerted me to this problem where 
servicemembers have been called up or dispatched to a different 
part of the country and they have difficulty dealing with their 
cell phone contract. Oftentimes we enter into multiyear 
contracts when we get our phones, and although many service 
providers have express policies that would allow active duty 
military to terminate, sometimes those policies are overlooked 
and not every single provider has them. So this bill would 
provide certainty.
    It would allow members of the Armed Services to suspend or 
terminate contracts for telecommunication services when those 
services are of no use to them because of their call to active 
duty or an involuntary extension of the period of military 
service or deployment overseas to locations where the services 
aren't available.
    When a soldier is called up, the last thing they need to be 
worried about is their cable bill. As one mother called and 
told me with her son in Iraq, she said her son is over there 
risking his neck; he shouldn't have to deal with a cell phone 
company.
    So I don't mean to suggest that most cell phone companies 
have been abusive in that. In fact, telecom providers have 
reached out to my office, offering helpful suggestions for 
potential changes that would harmonize the bill as introduced 
with the Communications Act and have been very collaborative, 
and I do appreciate this. However, I think having some 
certainty in this area would be important.
    I want to clarify that the bill is narrower than H.R. 3298, 
introduced by Mr. Murphy of Pennsylvania. But I support his 
bill. In fact, I am a cosponsor of his bill. This would be 
encompassed if the Committee moves that bill or, this is a 
unique issue, we could move this bill. Silicon Valley, I guess, 
is ground zero for high tech, and it is something that has 
caught my attention. I think it would be another thing we can 
do for our brave men and women who are doing so much for us.
    So I appreciate the opportunity to testify and the 
leadership of all of you in making sure we do the right thing 
for these brave Americans.
    [The prepared statement of Congresswoman Lofgren appears on 
p. 36.]
    Ms. Herseth Sandlin. Thank you, Congresswoman Lofgren. We 
appreciate that you have worked with the telecom companies and 
other providers, and appreciate your support of Mr. Murphy's 
bill as well. We will be moving to a markup next week and be 
looking at different bills for consideration, and look forward 
to hearing some of the thoughts of others that are testifying 
today on your bill, in the hopes that we can integrate some of 
the provisions of yours into a broader bill, given we have 
already had a hearing for Mr. Murphy's as well. Thank you for 
working with those in the industry.
    Mr. Cardoza, welcome to the Subcommittee. You are now 
recognized.

                STATEMENT OF HON. DENNIS CARDOZA

    Mr. CARDOZA. Thank you, Madam Chair. I appreciate you 
inviting me here today to testify on an issue that I am sure 
you will agree will make life just a little bit easier for our 
Nation's veterans.
    Madam Chair, I have a veterans advisory committee that I 
meet with regularly in my district, and in these meetings, 
veterans time and time again have told me that veterans, the 
rank and file veterans especially, are simply unaware of the 
benefits that they are eligible for. In several instances, 
veterans have told me upon being discharged and returning to 
the United States, they must sit through a transitional process 
meeting explaining some of their benefit programs immediately 
upon exiting the plane.
    Madam Chair, I am sure you will agree that after fighting 
for our country and being away from loved ones for months at a 
time, the last thing our troops have on their mind is their 
benefits. They want to see and hug their family and their 
children. They are tired from an exhausting flight; they are 
longing to see their families waiting just beyond the gate.
    Yet, this process meeting may be the only time that some 
veterans hear about their benefits. More often than not, this 
is a missed opportunity. Others have told me that in their 
briefings with the VA representative they only have 5 minutes, 
with a dozen other veterans awaiting their 5-minute briefing as 
well.
    The veterans receive incomplete information. They are 
handed a few pamphlets. They oftentimes feel rushed and are 
unable to ask questions that they may have thought of right 
after they leave the meeting because of time constraints.
    I respectfully ask that this Subcommittee consider for a 
moment how in the world anyone can explain all the available 
benefits to which a veteran is entitled in 5 minutes, let alone 
answer potential questions.
    Madam Chair, my bill, H.R. 2721, is quite simple. It would 
require the Secretary of the VA to issue a comprehensive CD-ROM 
to returning veterans that clearly explains the benefits to 
which they are entitled. The CD would inform returning veterans 
and their families in plain English about how to access and 
navigate VA so they know about all the benefits they have 
earned and how to go about receiving them.
    This would provide a one-stop source for veterans where 
they can simply pop a CD into their computer whenever they wish 
to look up the information so no benefit slips through the 
bureaucratic cracks. I understand VA currently outlines some of 
the information on their Web sites or in pamphlets. This 
information is not comprehensive, however.
    My bill requires full, complete and updated information be 
provided on a VA Web site as well. However, a CD, in my 
opinion, is still necessary and would benefit districts like 
mine with large rural areas where access to the Internet may 
not always be reliable or, in some cases, even available.
    This bill only fixes the process, not the symptoms, and it 
is just one small step in the right direction to ensure our 
veterans who served so honorably receive the benefits they 
earned. I believe if we fix the broken informational process, 
we are going a long way toward solving some of the benefit 
problems.
    Giving the troops the informational tools they need to 
ensure they are actually receiving their well-deserved benefits 
is the least we can do on behalf of a grateful Nation.
    Thank you again for allowing me to be here and give 
testimony on behalf of the bill.
    [The prepared statement of Congressman Cardoza appears on
p. 36.]
    Ms. Herseth Sandlin. Thank you, Mr. Cardoza.
    You may be interested to know that Mr. Boozman and I 
recently attended a field hearing with our colleague Mr. 
Donnelley in Indiana, in which we realized there, as we did in 
other parts of the country and other testimony we have taken, 
people are falling through the cracks in getting access to 
information about their benefits, whether they are Reservists 
who are in smaller detachments that are now being deployed, 
whether it is full units in the National Guard and the 
different States on how they have handled demobilization, and 
certainly those that are going through the Transition 
Assistance Program (TAP), which is not mandatory at our active-
duty bases around country.
    So we appreciate it. We think it is a great idea. We 
appreciate the bill you are bringing forward and a way, a step 
forward in the right direction of sharing information in a way 
that is reliable, that will allow servicemembers and their 
family members to go back with reliable information to help 
answer their questions.
    So, again, we thank you for your testimony and the bill you 
have introduced.
    Mr. Carter, you are now recognized.

                 STATEMENT OF HON. JOHN CARTER

    Mr. Carter. Thank you, Madam Chair. I want to thank the 
Members of the Subcommittee for allowing me to be here to talk 
about an issue that I think is pretty important to our 
veterans, our servicemembers, and I want to thank you for all 
that you do for our veterans and servicemembers. I am pleased 
to serve on the Military Quality of Life and Veterans Affairs 
Appropriations Subcommittee. We work on many of the same 
issues, and I am proud to work with you on those issues.
    I want to talk today about H.R. 6070, the ``Military 
Spouses Residency Relief Act.'' This, like many things that 
happen here in Congress, started when a former constituent 
whose husband was still a constituent came to me to meet in the 
office here in DC. I say that for scenario because her husband 
had chosen Fort Hood, Texas, as his residency, as he could 
under the Servicemembers Civil Relief Act, and they had been 
transferred to the Pentagon. He was, I believe, a major.
    But she, in turn, could not claim Fort Hood as a residency. 
She had a business that just did business in Texas, and yet she 
was paying taxes in Virginia, she had to register to vote in 
Virginia, and vote for a different Congressman. She had to get 
a new drivers license. In other words, she was not given the 
same courtesy of claiming the residency of the families' choice 
that her husband had, that we had given to him as a member of 
the service. This seemed, to me, to not be a fair thing to 
happen. She pointed out that she actually made more income than 
her major soldier did, but they honored the Army and they were 
proud to be part of it.
    It seemed to me that this is something that we ought to be 
able to fix. I think it will provide relief. Remember, we say 
now, and I know this is said at Fort Hood all the time, we 
recruit a soldier, but we retain a family. The vast majority of 
our servicemen and women today that are in our military service 
are married, many with children, and so we are now a married 
military. We need to provide the relief to these spouses that 
we give to the soldier, and that is that she or he should be 
able to choose the residency that her spouse, his or her spouse 
shows as their residency so the family has the same residency, 
they get their same services from the same Congressional 
district, they vote for the same Congressman or Congresswoman, 
and they have a relationship to where they choose to call home.
    We can do this with this bill. This will allow the wife to 
choose that place, or where her husband has chosen. It helps 
with land titles, it helps with titles to vehicles. If there is 
a divorce, it is very important if there should be a divorce in 
the family. It helps voter registration, it helps with vehicle 
registration, and most of all, it helps with income taxes 
versus other taxes in the States where they have chosen to be 
residents.
    This has no effect whatsoever--it is revenue-neutral for 
the U.S. Government, but it is important to the revenue of the 
families of our soldiers, sailors, airmen and Marines, and I 
would respectfully request that this is a simple matter that 
will make a major difference in the lives of these folks.
    The average loss that every spouse makes on a move is 
somewhere between $5,500 and $7,200. Every time they make a 
move. Almost 90 percent of our spouses work. It is critical we 
give the same relief to the spouse that we give to the soldier.
    I would hope that you would support this idea and this bill 
so that we can make this family united in their residency and 
domicile.
    I thank you for allowing me to be here.
    [The prepared statement of Congressman Carter appears on
p. 37.]
    Ms. Herseth Sandlin. Thank you, Mr. Carter.
    I do support this bill and this concept. We look forward to 
getting some additional input from the folks who will be 
testifying later, but I certainly agree with you that in light 
of whether it is the example you provided in some of the 
temporary assignments to people here in the Pentagon, but also 
the other moves that we know our military families make on such 
a frequent basis, that we will be looking to simplify their 
lives in those transitions, not the complexities of the 
jurisdictional issues they face when spouses can't claim the 
same benefit as it relates to residency.
    So we appreciate your testimony and sharing with us your 
constituent's experience, your concern, and all the other 
examples you gave about how this can become very complicated 
for families and a way of cutting through some of this 
jurisdictional matters that they are facing to make it easier 
for them.
    Mr. Carter. Thank you for allowing me to be here and thank 
you for admitting the evidence that Ms. Poynter submitted to 
the Committee.
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Welch, we have pending votes, as you know, but I think 
we have time to wrap up our first panel with your testimony.
    You are recognized.

                 STATEMENT OF HON. PETER WELCH

    Mr. Welch. I really appreciate it, Chairwoman Herseth 
Sandlin and Ranking Member Boozman. We are all grateful to you 
in Congress because you have been doing something all of us 
know we need to do, and that is respect the service of our 
soldiers.
    I am here to testify on behalf of a reauthorization of the 
Service Members Occupational Conversion and Training Act. As 
you know, that had been authorized in the nineties and it was 
to assist veterans returning home to get employment after their 
military careers. It worked. And expired. The question is will 
we reauthorize it.
    What I think is so tremendous about this program is that it 
focuses on soldiers and their future because when they come 
back, there is an enormous amount of dislocation, as you know. 
Sometimes soldiers have very bad injuries. They have to contend 
with that. This Congress, with your leadership, has paid a lot 
of attention to increasing veterans benefits, particularly in 
the area of healthcare, because the cost of the war has to 
include the cost of caring for the warrior.
    But what soldiers want is what any other American wants, 
and that is hope. It is about getting on with the future, and 
that is about having a job where you can feel good about 
showing up for work, where you can pay your bills, and take 
care of your family, be a provider.
    What this does is recognize that these employment-based 
programs have to be a very important component of making our 
soldiers get integrated back into life. It was a practical 
program, in that it worked with employers who were willing to 
work with veterans by reimbursing them for an 18-month period 
that would allow workers to get the skills they needed to do 
sometimes retraining, some job programming. So it is a 
practical and proven program that helps our soldiers get back 
into normal life, and most of us, normal life includes a job 
that we really value.
    So you know better than I all the compelling reasons to do 
what we can for our soldiers. This is a program, this is 
relatively inexpensive, proven to be effective, talks about the 
future, and gives soldiers an opportunity to develop their 
skills in civilian life.
    I thank you very much for the opportunity to be here before 
you and again applaud you for the tremendous work you have done 
on a bipartisan basis to help us meet our commitment to our 
soldiers.
    Thank you.
    [The prepared statement of Congressman Welch appears on
p. 38.]
    Ms. Herseth Sandlin. Thank you, Mr. Welch, for introducing 
this bill. You are right about the proven effectiveness of the 
program, and we look forward to working with you to ensure 
reauthorization, with perhaps looking forward and seeing if 
there might be some changes that might be necessary.
    I know that Mr. Boozman will want to visit with you as we 
head down to votes perhaps, or now, since we have a little bit 
of time, about some of his thoughts about the Reauthorization 
Act.
    Mr. Boozman. Madam Chair, again, I appreciate you bringing 
this forward. I think it is something that we need to do, I 
think something that we are committed to doing. I think what we 
would like to do is work with you to have some ideas of 
tweaking things.
    Mr. Welch. I would be delighted. As you know, Peter King 
had very similar legislation in another bill, and has been a 
leader in Congress as well.
    Mr. Boozman. We look forward to working with you, and 
hopefully getting this thing done.
    Mr. Welch. Thank you.
    Ms. Herseth Sandlin. Thank you for your commitment to our 
Nation's servicemembers and veterans.
    We will resume this Subcommittee hearing after this series 
of votes.
    [Recess.]
    Mr. Boozman [presiding]. Thank you all for bearing with us. 
The only thing we have to do here is vote, and that is one 
thing we can't put off.
    Let's go ahead and get the second panel.
    Joining us on our second panel of witnesses is Mr. Charles 
Huebner, Chief of Paralympics for the United States Olympic 
Committee, and Mr. Bobby Franklin, Executive Vice President of 
CTIA, the Wireless Association. We are very pleased that you 
are here at the Subcommittee today. In the interest of time and 
respect to all the panelists here today, we ask that you limit 
your testimony to 5 minutes. Your entire written statement will 
be put in the record.
    Mr. Boozman. Let's start with Mr. Huebner.

  STATEMENTS OF CHARLES HUEBNER, CHIEF OF PARALYMPICS, UNITED 
 STATES OLYMPIC COMMITTEE; AND BOBBY FRANKLIN, EXECUTIVE VICE 
           PRESIDENT, CTIA--THE WIRELESS ASSOCIATION

                  STATEMENT OF CHARLES HUEBNER

    Mr. Huebner. Ranking Member Boozman, thank you for allowing 
us to be here again. I am really going to update you a little 
bit on what we have been doing with the Paralympic Military 
Program. As you know and the Subcommittee knows, the Paralympic 
movement exists today because of injured veterans following 
World War II using sport as rehabilitation.
    USOC today spends more than $12 million annually on 
Paralympic Programs. All of these funds, of course, have been 
from private sources. Paralympic organizations throughout the 
U.S. spend an additional $30 million at the local level to 
provide sports and physical activity programs for persons with 
physical disabilities, including veterans and injured military 
personnel.
    I would like to ad lib a little bit. Looking at the some of 
the testimony from some of our other partner organizations that 
we work with, I just want to clarify, and maybe even assist 
some of their testimony. What we do is not exclusive 
competition or just elite competition. The priority focus of 
the Paralympic movement is, one, to send a team to the games. 
But 95 percent of the participants that participate in 
community-based Paralympic Programs will never go to the 
Paralympic games.
    Our focus at the USOC with our partners is to provide 
physical activity as part of rehabilitation for persons with 
physical disabilities. The majority of the population that we 
touch on a daily basis will never, ever see the Paralympic 
games.
    Let me give you a couple examples of that. Veteran Kortney 
Clemons, who currently resides in Chula Vista, California, was 
injured in Iraq. Kortney participated in our Paralympic 
Military Sport Camp 3 years ago. Last month, he graduated from 
Penn State University. Last week he started an internship at 
San Diego Adaptive Sports and Recreation, and is pursuing his 
career interest to be a therapeutic recreational specialist in 
community Paralympic Programs.
    He is just one example. Kortney is not going to the 
Paralympic games. He is one example of what we are trying to do 
in looking at the rehabilitation process by using sport as a 
platform to re-engage in life, education and employment, and 
that is a primary focus of what we are trying to do.
    In the past 2 weeks, the USOC and our partners, including 
Paralympic organizations, veteran organizations, parks and 
recreation offices, and Paralyzed Veterans of America (PVA) 
chapters accomplished the following: 20 veterans participated 
in a Paralympic veterans program in Alabama led by Paralympic 
mentor Carlos Leon, a Marine veteran; 18 veterans participated 
in a Paralympics veterans program in Oklahoma, led by Army 
veteran, Paralympic mentor and, sir, I have to do this, 
University of Arkansas graduate, John Register.
    The USOC launched a pilot program at Fort Lewis, 
Washington, last week focused on providing programming and 
physical activity support to more than 700 individuals in the 
Warrior Transition Unit at Fort Lewis.
    In collaboration with Mesa Parks and Recreation, Arizona 
Disabled Sports, and Arizona PVA, more than 85 athletes 
participated in Paralympic track and field events in Tempe, 
Arizona, including 15 injured veterans.
    We also have developed and are implementing community 
sports programs that are recreational in nature, supporting VA 
facilities in Augusta, Tampa, Richmond, Minneapolis, San Diego, 
Palo Alto, Birmingham, Chicago, Cheyenne, Atlanta, and Oklahoma 
City.
    Our focus in what we are trying to develop with the 
Paralympic Military Program is not to develop elite athletes. 
The primary focus and what lacks today greatly in the United 
States is the availability of community-based programs for 
injured military personnel and veterans to participate in upon 
their return home. That is a major concern of ours.
    There are a lot of great events that our partners and us 
put on on an annual basis that people come to for a week and 
participate in. Our biggest concern in the thrust of everything 
we are doing and the resources that H.R. 4255 would provide for 
veterans is to make sure that there are programs existing in 
their communities when they go home. That is the major emphasis 
to what we are trying to develop, ensuring that community 
programs and Paralympic mentors are available to veterans upon 
return home.
    Those programs are not at VA facilities. I am going to read 
you a direct quote from a Paralympic mentor. I emphasize 
community and I emphasize collaboration because it is cost-
efficient and it is effective and we can reach more people. 
This is what a veteran said: ``The reason I do, as one veteran 
said, I spent a year of my life in a hospital rehabbing. The 
last place I want to go with family or friends to play 
basketball is the hospital.''
    Our programs are focused on creating programs in the 
community, and we see ourselves as an extension of the 
Department of Veterans Affairs and other entities, the 
Department of Defense, to support injured military personnel 
with community programs. When I say we, it is not just the U.S. 
Olympic Committee. It is organizations look the Parks and 
Recreation Association, which has 6,000 programs in communities 
all over the United States; it is organizations like the 
Disabled American Veterans (DAV) and the PVA that we 
collectively will be efficient from a cost perspective and, 
most importantly, more effective in reaching more people.
    I thank you for the opportunity to speak in front of you 
today. I am available for any questions that you may have.
    [The prepared statement of Mr. Huebner appears on p. 39.]
    Mr. Boozman. Thank you. I think what we will do, go ahead, 
Mr. Franklin, and do your testimony. What we are trying to do 
is make it easier for you all. I think that would probably be 
the easiest thing.

                  STATEMENT OF BOBBY FRANKLIN

    Mr. Franklin. Very good. I thank the Chair. Good afternoon. 
Since Arkansas was already invoked at this panel, let me start 
by saying that after 20 years in Washington, I still consider 
Russellville, Arkansas, home, with my family and friends there.
    My name is Bobby Franklin, I serve as Executive Vice 
President of CTIA, the Wireless Association. We at CTIA are 
proud to count among our vast membership wireless carriers, 
equipment manufacturers, and applications developers that 
collectively provide amazingly innovative products and services 
that keep Americans connected in their day-to-day needs.
    Let me first make one point very clear. CTIA's wireless 
carriers already allow members of the U.S. Armed Forces facing 
military deployment to terminate contract-based wireless 
service without penalty. Additionally, many of our carriers 
have taken steps to create special military programs that allow 
servicemembers to suspend service so they may retain their 
phone numbers upon their return.
    While CTIA and our highly-competitive industry generally 
oppose government mandates, in an effort to combat unverified 
reports of contract problems with deployed servicemembers, 
CTIA's board of directors charged us to actively support 
Federal legislation allowing our servicemembers to terminate 
wireless contracts without penalty when they are deployed 
abroad or to a location that does not support the service from 
that particular carrier.
    We do have three suggestions for the legislation to improve 
H.R. 3786. First, the bill should be amended to make sure the 
definitions of ``covered services'' conform to the definitions 
in the Communications Act. This will hopefully eliminate any 
potential confusion about what is or is not covered by the 
legislation.
    Second, we propose a clarification of the bill's provisions 
on pro-ration to better reflect the way that wireless service 
is both purchased and used. By accommodating the way our 
billing systems work, you will help keep the cost of wireless 
service continuing to decline for all users.
    Thirdly, we believe any fines should be capped at no more 
than $10,000 dollars, and that such penalties should be levied 
only in cases where there is a knowing and a repeated violation 
of the law.
    These suggestions are consistent with the recommendations 
we offered this Subcommittee at your April hearing on 
Congressman Patrick Murphy's bill, H.R. 3298. We are pleased to 
report that Congressman Murphy has incorporated our suggestions 
into a revised version of his legislation. We are also happy to 
report, and I think Congresswoman Lofgren mentioned on the 
earlier panel that we have been working closely with both her 
and her staff and hope to achieve the same outcome with respect 
to the bill before the Subcommittee today, H.R. 3786.
    Finally, let me just share that the wireless industry 
recognizes the sacrifice and the dedication of the members of 
our U.S. Armed Forces, and we are pleased to work toward 
enactment of appropriate legislation to benefit servicemen and 
servicewomen facing military deployment. In fact, CTIA and its 
member companies are hopeful that this Committee, as well as 
this Congress, can address this legislation just as soon as 
possible.
    I thank you for this opportunity and I look forward to any 
questions you may have.
    [The prepared statement of Mr. Franklin appears on p. 42.]
    Mr. Boozman. Thank you very much.
    Mr. Huebner, one of the problems, one of the criticisms 
that we have heard in the past, and I am glad that you seem to 
have addressed it in your testimony, but one of the criticisms 
that we have is that the program is only about elite 
competition, things like that.
    It sounds like you are doing a lot of things to try and 
address that. How many current partners do you have to help 
provide ongoing programming at the community level?
    Mr. Huebner. Sir, our focus is to have 75 Paralympic sport 
clubs created by the end of this year, where the focus in those 
communities is participation. It is participation in physical 
activity. We are working with the National Recreation and Parks 
Association, we are working with Paralympic organizations. We 
have more than 43 signed up already. We will be in 75 
communities by the end of this year. But the absolute emphasis, 
you don't get to elite Paralympic sport just by joining a 
participation club. It is very important. We understand that 
research shows physical activity for persons with physical 
disabilities does some very important things like reduce 
stress, reduce depression, raise self-esteem, things very 
important to veterans coming home from a very difficult 
environment.
    We are very focused on creating participation programs, and 
this is the most important piece; participation programs at the 
community level that they can go to every day, not drive 8 
hours to go participate in a physical activity with their 
friends and their family, but in their backyard, in their 
community that they go home to. That is our primary focus. The 
majority of those programs are in the community. So we see 
ourselves very strongly as an extension of the VA system, not 
developing programs within VA facilities.
    Mr. Boozman. Good.
    On average, how many Paralympians are veterans compared to 
nonveterans?
    Mr. Huebner. I am very proud to say the beauty of 
participating in programs is some people are going to have more 
athletic talents than others. I am very much aware of that 
because I never had the opportunity to make an Olympic team. 
But we have six veterans right now that will serve, veterans of 
the Iraq or Afghanistan campaign that will represent this 
country again.
    Our team size is about 205. Ninety percent of the 
population that we deal with on a daily basis, Olympic or 
Paralympic, in terms of athletes, will never participate in the 
Olympic or Paralympic games. The majority of the program is at 
the community level are participatory and I noted in the DAV 
comments to exclude the word competitive. Our programs at the 
community level are participation and focused on physical 
activity. Only a very few raised up to that level of being able 
to represent this country at the Olympics or Paralympics. When 
they do, it is a great story. It is great to hear about a 
veteran like Kortney Clemons succeed, not only in participation 
in sports, but also in employment and in education.
    Mr. Boozman. If H.R. 4255 were to pass, what would be the 
impact on your organization?
    Mr. Huebner. When I talk about our organization and our 
programs, I am talking about collaboration with organizations 
like the PVA, Paralympic organizations around the country. 
Those dollars would specifically be focused on veterans to 
support, develop, and train, which is extremely cost-efficient.
    I mean, I talked with Congresswoman Herseth Sandlin about 
this; a rural community in South Dakota, to go in and develop a 
program would not make efficient sense from a cost perspective 
or participation perspective if it was for one veteran. But if 
we can train a parks and recreation in a rural area to support 
that veteran, they already have existing programming, they have 
existing buildings. What we are doing is providing the training 
and ongoing technical assistance to allow communities all over 
the country to expand programs focused on veterans.
    We could significantly increase the number of people 
participating in physical activity on a daily basis. There is a 
great need in the country for that.
    Mr. Boozman. Is there anything we can do to help you serve 
the recently-injured veteran?
    Mr. Huebner. Sir, everything you have been doing has been 
outstanding. Our role has been in collaboration with numerous 
other organizations. The greatest need now is there is a great 
lack of programming around the country. There are a lot of 
great events, but events last a week and then somebody goes 
home. What we want to make sure, and we see this all the time, 
you are familiar with our Paralympic military sport camp, 
people come to the Olympic training center and have the 
greatest week of their life, 50 or 100 people. What we are most 
concerned about is when those 100 people go home to their 100 
communities, is there a program for them to participate in, 
because it is our understanding, and yours more so, that is 
when bad things start happening.
    When you get back to your home community and the resources 
of the program isn't there at the local level to immediately 
integrate you, that is our primary focus with what we are 
trying to do with the Paralympic Military Program, and H.R. 
4255 would allow matching dollars to support the dollars we and 
other organizations are investing to significantly increase 
participation, as well as programming at the community level.
    Mr. Boozman. Very good.
    I think I can speak for Ms. Herseth Sandlin. We really do 
appreciate your hard work. I personally feel like this is a 
great program. We can always improve and we can always better 
support. But as somebody that chased athletics awful hard in my 
youth, unsuccessfully, I might add, again, getting these men 
and women where they are concentrating on a goal, I think it 
does play an important part of the healing process. And, again, 
something that can be a lifelong thing that they can pursue.
    Mr. Huebner. Sir, one last point. I know employment is 
important for veterans. The people that are driving this 
program for us are veterans.
    Mr. Boozman. Very good. Thank you very much.
    Mr. Franklin, how does the wireless industry inform not 
only their employees, but the servicemembers, about the policy 
to not charge cancelation fees when a servicemember is 
deployed? If Congress made this policy into law, do you believe 
this will reduce the incidence where we have the same problems 
we have now?
    Mr. Franklin. I do believe that this will help. I think, 
the fact that Congress is taking up this legislation and 
addressing it will go a long way to help us make sure that all 
servicemembers know that the policies, and in the case if the 
bill passes, the law, will state that this is what should 
happen.
    We do a lot, our companies do a lot of training of their 
customer service employees, but when you have 260 million 
subscribers and tens of thousands of customer service reps, I 
am not here to say mistakes don't happen. But I think that with 
the policies in place and with Congress paying attention to 
this, it is my hope that all servicemembers recognize this 
availability.
    Mr. Boozman. Very good.
    Are you aware of any complaints in the last couple of years 
with this type of thing?
    Mr. Franklin. We have unverified reports. We have certainly 
heard, but have not been able to verify, the fact that some 
servicemembers have had difficulty getting out of their 
contracts. But it certainly, as I said before, it is not the 
policy of the companies and, as I said in response to your 
first question, I think the fact that you all are looking at 
this and helping publicize the fact that these policies exist 
for most of the carriers in this country, that it will 
certainly help the servicemembers.
    Mr. Boozman. Currently, how long does a servicemember, how 
long are they able to reserve their phone number, and is that 
policy adequate or does that need to be extended?
    Mr. Franklin. I would like to get back on the technical 
answer to this because it has to do with how long a company can 
pool a number that is not being used in service. So there are 
specific rules that our companies must follow, the FCC has, the 
North American Numbering Administrator has, that we must 
follow. So I would like to get back to the Subcommittee on the 
answer to that.
    I do know and am proud that many of our member companies 
have, on their own, initiated servicemember policies to allow 
them to suspend. The question is for how long. When it comes to 
how long we can suspend, our hands may be tied by another 
agency.
    Mr. Boozman. I am going to turn things over to Mr. Hall. I 
do want to thank you. The Subcommittee will probably have a 
couple more questions in writing that we would like answered. 
But I do want to thank you for your openness and willingness to 
work with us on this to make sure these men and women, as they 
are deployed, they have enough to hassle with, and we all agree 
with this, I know that you agree with us and the people that 
are out in the field working, serving the veterans agree that 
they have enough hassle without dealing with this.
    So thank you very much.
    Mr. Franklin. Absolutely.
    Mr. Hall [presiding]. Thank you, Mr. Boozman.
    I regret missing your testimony. Permit me to ask you a 
couple of questions anyway. I did have the opportunity to read 
it.
    I will briefly ask, and forgive me if these questions have 
already been asked. Mr. Franklin, which bill do you think would 
better serve our servicemembers, the Lofgren bill or the Murphy 
bill?
    Mr. Franklin. We are in support of both bills. Assuming 
that the suggestions on how to improve both bills are taken, we 
are really agnostic to both of those bills. We assume that you 
all will need to make that decision. I know that Madam Chairman 
Herseth Sandlin mentioned in her opening statement that there 
might be a way to pool those bills together, and we would be 
supportive of either or both, assuming the suggestions we made 
were incorporated.
    Mr. Hall. How much time elapses between when a 
servicemember requests to terminate a contract and when that 
contract is actually terminated?
    Mr. Franklin. I think that, in most cases, it can be done 
very quickly. Again, each company has, in some cases, multiple 
billing systems, and it could technically be a difference of 
what part of the country you lived in, depending on what 
billing system that company is using, to answer with great 
specificity, but the policy of the industry and of the 
companies is that once they receive the order or a copy of the 
order from the servicemen and women showing that they are being 
deployed or moving to an area that doesn't have service by that 
particular company, then the policy is for them to terminate 
that contract.
    Mr. Hall. Mr. Franklin, to your knowledge, how many of the 
telecoms have international service? Can you estimate?
    Mr. Franklin. Well, international service plans are offered 
by many of the companies. But that doesn't necessarily mean 
that they have the facility in another country.
    Mr. Hall. Like towers in Iraq or Afghanistan?
    Mr. Franklin. Correct.
    Mr. Hall. Even more difficult.
    Mr. Franklin. But they may have partnerships with wireless 
carriers internationally. In fact, they do--many of them do 
offer international plans, perhaps not in every part of the 
world where the servicemen and women are. That is why we do 
have these policies to let them out of the contract.
    Mr. Hall. Right. In such locations that service exists, I 
assume that there is work or discussion going on about changing 
the contract or exchanging it for one that would allow the 
servicemember to transfer the remainder of their contract to 
one that covers that area and allows communication with home.
    Mr. Franklin. In the case of transferring their contract to 
another provider, I am not sure that would work. But certainly 
if they want to take up service with a U.S. provider that does 
have a relationship or service with somebody that provides 
service where they are being deployed, that option exists, 
absolutely.
    Mr. Hall. Thank you very much.
    Mr. Huebner, if H.R. 4255 were to pass, what would be the 
impact on your organization?
    Mr. Huebner. The impact is on the movement, not so much our 
organization. We have implemented a strategy to provide 
programming for veterans in communities all over the United 
States in the communities that they return home to, and we are 
doing that in partnership with numerous organizations like the 
National Recreation and Parks Association, Paralympic 
organizations, Paralyzed Veterans of America, and others. So 
the impact would be on increasing significantly the ability to 
reach more veterans in their home communities with very cost-
efficient programming because all the programs I just mentioned 
are investing their own resources to provide that support to 
veterans.
    Right now in America, just to give you an example of 
physical disabilities, 21 million Americans have a physical 
disability in the United States. Less than 10 percent of them 
participate in daily physical activity. Our goal with H.R. 4255 
is to increase significantly the number of veterans that return 
home and can participate in daily community programs in their 
local community.
    Mr. Hall. Can the USOC military Paralympic Program survive 
without Federal assistance?
    Mr. Huebner. Sir, we are surviving with private investment 
and with our partnership with those organizations. We can grow 
exponentially by having an investment to match the investment 
of all the organizations we are working with. We can reach more 
veterans. That is the bottom line. But, yes, we will survive, 
we will continue on. We are moving on with or without any 
Federal support. But my point to you is that with an investment 
to match the private investment that already exists, estimated 
more than $42 million, we can substantially reach more 
veterans.
    Mr. Hall. Do you work with Professional Ski Instructors of 
America, Adaptive Program, and other private athletic 
organizations who already have adaptive sports programs?
    Mr. Huebner. That is where you get your efficiency. We have 
identified communities that already have programs. We have also 
identified numerous communities that don't. The role is to 
provide training and technical assistance. For example, in a 
rural area, to create a specific program in a rural area is not 
efficient. To work in collaboration with the Parks and 
Recreation that already has buildings and staff and provide 
them the equipment and expertise to serve that maybe one 
veteran in a rural area is very efficient. That is our focus 
with what we are trying to do, working with established 
programs today, as well as identifying markets that don't have, 
and I will give you an example, in Colorado Springs, Colorado, 
there is not a comprehensive program to serve injured personal 
or veterans. We will have one established with the City of 
Colorado Springs by the end of this year.
    Mr. Hall. Well, thank you very much, both of you, for your 
patience and your testimony. Thank you, Ranking Member Boozman, 
for filling in as Chair.
    Mr. Boozman. Thank you for being here. My only frustration 
is some of them are playing golf. My frustration is going out 
and playing with them and just getting trounced. So thank you 
very much.
    Mr. Hall. My frustration has been beaten down the hill by 
an adaptive skier in a sit-ski while being a certified level II 
alpine ski instructor. That is good.
    Mr. Huebner. Sir, both of you, obviously that is a great 
story for us to tell America and that is an important part of 
what we do just not for Americans but all veterans, to say I 
can come back from Iraq like Kortney Clemons did, go back to 
school. I can pursue a new career and I can be involved in 
physical activity which, as we talked about earlier, he can run 
a little bit faster than I can.
    Mr. Hall. Well, thank you very much for the work that you 
do and for your advice and counsel to the Subcommittee. This 
panel is now excused. Have a wonderful afternoon.
    We now invite Panel Three to the witness table. 
Participating on our third panel are Mr. Kerry Baker, Associate 
National Legislative Director of Disabled American Veterans; 
Mr. Joseph Sharpe, Deputy Director of the National Economic 
Commission for the American Legion; Mr. Richard Daley, 
Associate Legislation Director for the Paralyzed Veterans of 
America; and Mr. Richard Weidman, Executive Director for Policy 
and government Affairs for the Vietnam Veterans of America 
(VVA).
    Mr. Hall. Gentleman, without objection, your full written 
statement will be entered into the record and you will be for 5 
minutes.
    Mr. Baker, you are now recognized.

   STATEMENTS OF KERRY BAKER, ASSOCIATE NATIONAL LEGISLATIVE 
             DIRECTOR, DISABLED AMERICAN VETERANS; 
   JOSEPH C. SHARPE, JR., DEPUTY DIRECTOR, NATIONAL ECONOMIC 
     COMMISSION, AMERICAN LEGION; RICHARD DALEY, ASSOCIATE 
   LEGISLATION DIRECTOR, PARALYZED VETERANS OF AMERICA; AND 
     RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

                    STATEMENT OF KERRY BAKER

    Mr. Baker. Mr. Chairman, Members of the Subcommittee, thank 
you for inviting the DAV to present this testimony on various 
bills before the Subcommittee today. H.R. 3786, H.R. 6070, and 
H.R. 6224 are all outside the scope of DAV's mission. We 
nonetheless have no opposition to their favorable 
consideration.
    H.R. 2721 would require the VA and DoD to develop and 
distribute to members of the Armed Forces upon their discharge 
information in a compact disk format that explains benefits for 
which veterans are eligible under the laws administered by the 
Secretary. This legislation would improve outreach services and 
is therefore deserving of DAV's support.
    The information contained on such a disk should be all 
inconclusive in regards to VA benefits and military benefits. 
Considering the lack of effective outreach in relation to older 
groups of veterans, Congress should consider whether this type 
of information should be disseminated to older groups in 
addition to discharging members.
    The DAV presented testimony in the House Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs on 
May 22, 2008, regarding the issue of outreach. In that hearing, 
the DAV outlined serious flaws in VA's outreach efforts in 
relation to older groups of veterans. This legislation could 
serve as a vessel to improve those outreach efforts in a cost-
effective manner.
    H.R. 4255 would amend the law to authorize VA to provide 
assistance to the Paralympic Program of the United States 
Olympic Committee. The DAV has concerns regarding this bill. 
Since 1991, the DAV and the VA have co-hosted the National 
Disabled Veterans Winter Sports Clinic in Snowmass, Colorado. 
The sole purpose of this program is to promote rehabilitation 
by instructing severely disabled veterans in adaptive alpine 
and Nordic skiing and provide an introduction to other adaptive 
activities and sports.
    The winter sports clinic provides profoundly disabled 
veterans opportunities for self-development and challenge. The 
participants have an opportunity to develop winter sports 
skills and take part in a variety of adaptive workshops. This 
event evolved from VA's efforts in rehabilitation and adaptive 
sports.
    It should be noted that the winter sports clinic hosted by 
DAV and VA is purely for rehabilitative purposes and is in no 
way competitive in nature. As written, this bill has the 
potential to change that, something that both DAV and VA 
oppose.
    Many disabled veterans that participate in the winter 
sports clinic have never even before attempted such sports 
activities. Bringing a competitive atmosphere into that clinic 
we believe would do more harm than good.
    This bill is obviously well-intended and therefore DAV does 
not wish to stand in its way. However, we also cannot allow 
unintended consequences to occur that may jeopardize the two 
decades of success in helping to rehabilitate severely disabled 
veterans at the winter sports clinic has achieved. Therefore, 
rather than opposing this legislation, we ask that it be 
amended to exclude competitive sports from being injected into 
the DAV and VA's winter sports clinic.
    H.R. 6221 would require VA to include in each contract in 
which it enters for the acquisition of goods and services a 
provision that requires the contractee to comply with the 
contracting goals and preferences for small business concerned 
owned or controlled by veterans. The DAV supports this 
legislation.
    H.R. 6225 would amend the law relating to equitable relief 
with respect to a State or private employer. This legislation 
could have direct effect on service-connected disabled veterans 
because many obtain employment due to their service-connected 
disabilities. Those same individuals have enforceable rights of 
employment or re-employment. When those rights are violated, 
the victims of such violation should not be subject to the 
whims of discretion that some courts may choose to abuse. The 
DAV therefore supports this legislation.
    H.R. 6272 would authorize discretionary appropriations to 
carry out the Service Members Occupational Conversion and 
Training Act 1992. Under this law, the Secretary of Defense is 
required to carry out a program to assist eligible persons in 
obtaining employment through participation in programs of 
significant training for employment in stable and permanent 
positions. Servicemembers separated involuntarily who have 
service-related disabilities rated at 30 percent or more are 
among those affected. Therefore, the DAV supports this bill as 
well.
    Mr. Chairman, this concludes my testimony. On behalf of the 
DAV, I am pleased to answer any questions that you may have.
    [The prepared statement of Mr. Baker appears on p. 43.]
    Mr. Hall. Thank you, Mr. Baker, for your testimony. Now, 
Mr. Sharpe, you are recognized for 5 minutes.

               STATEMENT OF JOSEPH C. SHARPE, JR.

    Mr. Sharpe. Mr. Chairman and Members of the Subcommittee, I 
appreciate this opportunity to share the views of the American 
Legion on a couple of benefit-related legislative initiatives 
brought before us today, the first being H.R. 6272, the 
``SMOCTA Reauthorization Act of 2008.''
    Every year, over 250,000 servicemembers are discharged from 
the Armed Services. These former service personnel are actively 
seeking either employment or the continuation of former, or 
vocational education. SMOCTA was developed as a transitional 
tool designed to provide job training and employment to 
eligible veterans discharged after August 1, 1999.
    When created, SMOCTA was the only Federal job training 
program available strictly for veterans and the only Federal 
job training program specifically designed for the use by State 
veterans employment personnel to assist veterans with barriers 
to employment.
    SMOCTA is a unique job training program because it has 
successfully returned veterans to the civilian workforce. The 
American Legion strongly endorses this bill.
    The other bill that we are very concerned with is H.R. 
6221, the ``Veteran-Owned Small Business Protection and 
Clarification Act.'' The American Legion views small businesses 
as the engine that keeps the American economy on track. It is 
the driving force behind America's past economic growth, and 
will continue to be the major factor as we move forward into 
the 21st century.
    The American Legion supported legislation in the past that 
sought to add service-connected disabled veterans to a list of 
specified small business categories receiving 3 percent set-
asides.
    Despite enactment of Public Law 106-50 the Veteran 
Entrepreneurship and Small Business Development Act 1999, 
agency compliance has been minimal. However, VA has sought to 
raise those veteran procurement goals to 9 percent. Therefore, 
the American Legion supports H.R. 6221, which is intended to 
assist VA in reaching those new goals by ensuring that every 
contract up for bid be considered for a veterans service 
disabled-owned company.
    Mr. Chairman, this concludes my testimony. I appreciate the 
opportunity to present the American Legion's views on these 
important and timely topics, and I welcome any questions you 
may have. Thank you.
    [The prepared statement of Mr. Sharpe appears on p. 45.]
    Mr. Hall. Thank you very much, Mr. Sharpe. We will get back 
to questions after the other witnesses.
    Mr. Daley, you are now recognized for 5 minutes.

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Representative Hall, Ranking Member Boozman, I 
would like to thank you for the opportunity to share our views 
on the proposed legislation. My written comments are submitted 
for the record. I will limit my remarks to the time limited.
    Starting with the written comments, my verbal has changed 
from the written comments submitted because of some meetings 
that we have had.
    I wanted to address H.R. 4255, the ``United States Olympic 
Committee Paralympic Program Act.'' While we have previously 
mentioned concerns about H.R. 4255, in recent days, we have had 
the opportunity to talk with different Committee staff as well 
as with Mr. Huebner from the Paralympics. We see this potential 
expanding relationship between the VA and the USOC as an 
opportunity to benefit disabled veterans. Furthermore, we look 
forward to working with Paralympics to address our concerns 
about the impact of this new relationship on longstanding 
partnerships that we and other veteran service organizations 
had developed with the VA to support sports and recreation 
programs for disabled veterans. We are encouraged that 
satisfactory solutions to our concerns may be achieved.
    H.R. 6224, the ``Pilot College Work-Study Programs for 
Veterans Act.'' As we stated in testimony on similar 
legislation earlier this year, PVA supports the provisions of 
H.R. 6224, the ``Pilot College Work-Study Programs Act.'' This 
legislation would create a five-year pilot program for on-
campus work-study positions that may include work in academic 
departments, such as tutoring, research assistants, teaching 
assistants, lab assistants, and other services, including 
financial aid and cashier, admission. Just about any position 
that is available on the campus will be included in this 
program. We believe that the work-study program can be very 
beneficial for many students.
    ``The SMOCTA Reauthorization Act.'' The PVA supports the 
SMOCTA Reauthorization Act. We recommended the reauthorization 
of the Service Members Occupational Conversion and Training 
Act, SMOCTA program, or a program similar to that, in the 
hearing last October. SMOCTA was established during the 
downsizing of the military for veterans discharged after August 
1, 1990.
    This program was a cooperative venture between the 
Department of Defense--they funded it, and the U.S. Department 
of Labor and the VA. It was considered one of the better 
programs to serve transitioning military veterans. The program 
provided assistance in the form of reimbursements to employers 
to provide training for veterans that led to permanent 
employment. The program also included funds for assessment, for 
training programs, for supportive services for the trainee. The 
Disabled Veterans Outreach Program specialist and the local 
veterans employment representatives staff that is on the State 
level developed the employment training programs. The veterans 
eligible for this assistance were those with military 
occupations that were not transferable, those that were 
unemployed for long periods of time, or those that have a 30 
percent or greater disability.
    The SMOCTA program, we think, would be a real benefit 
because it would give the State employment workers something to 
go out to the manufacturers and employers and say, I have 
something to talk to you about. The Federal government is going 
to help you with training new employees.
    I think it is a win-win situation. A similar program would 
help the men and women transitioning today, the many men and 
women, and the Reserves and the Guard members who are 
reentering the workforce. I thank you for this opportunity and 
I am available for questions.
    [The prepared statement of Mr. Daley appears on p. 47.]
    Mr. Hall. Thank you, Mr. Daley. And Mr. Weidman, you are 
now recognized for 5 minutes.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Chairman Hall, Mr. Boozman, and in absentia, 
Ms. Herseth Sandlin. We appreciate the opportunity to be here 
today to testify on a number of important pieces of 
legislation. In regard to H.R. 2721, Mr. Garza is on the right 
track in that denial of knowledge of benefits, services and 
earned rights is tantamount to denial of those services, 
benefits and rights that are earned by virtue of military 
service. We would suggest, instead of locking the VA or DoD 
into a CD-ROM, our experience in working with young troops at 
Walter Reed and elsewhere is: the more portable it is and the 
more cool it is, the more they are likely to hang on to it.
    And right now at the TAP program, they get all this paper, 
and most of it never makes it back home. If you give them a 
memory stick, that also doubles as a key chain and it looks 
sharp, they will keep that. And that plugs into any computer, 
and it accomplishes the same task with having those key sites, 
as well as the information that is a contained in Federal 
benefits for veterans and their families booklet that is 
updated every year based on changes by the Congress and in 
regulation.
    Incidentally, even here at the flagship at Walter Reed, 
every time I go down there, I take the most current version, 
about 30 of them, with me. And I go down several times a month. 
The young people still have outdated versions of it. And no 
matter how much VA and DoD swear they have the most current 
information, they don't. And so those things are all gone, 
boom. And I put any extras on the table and they are all gone 
when I come back the next week.
    So getting good information out, we can't do too much of 
that. It really needs to be done. The second bill is H.R. 3786, 
the cell phones, VVA is for that. The one thing that we would 
urge you to be very cautious of is watering down this bill by 
inserting the word ``knowingly.'' That word ``knowingly'' was 
inserted in the Veterans Preference Act, Veterans Economic 
Opportunity Act, Employment Opportunity Act. And it has 
basically gutted that Act for any enforcement and enforcement 
of veterans preference in Federal employment.
    And the same thing is true when people say ``the contract 
will be immediately terminated''--as of what date? As of the 
date of the orders are supplied or as of the date of the end of 
a billing period? That may be anywhere from 30 to 90 days. 
Those things need, I would suggest, to be pinned down to make 
sure that the Act really accomplishes the protection you are 
seeking. H.R. 6070, anything that we can do to assist the 
spouses and the families of those who are deployed overseas we 
should do. And this is one of the very minimum things that can 
be accomplished in a few things that there is no cost but 
should be done.
    H.R. 6221, in regard to subcontracting, I hope that 
Committee staff and the Members will work with us. There are a 
number of problems with subcontracting that need to be 
addressed. This is only one. And the whole intent of P.L. 109-
461 having to do with VA procurement needs to be significantly 
tightened up, if I may suggest, particularly when it comes to 
subcontracting. And specifically it needs to be locked into 
Black Letter Law that the information on who prime contractors 
are subcontracting with cannot in any manner, shape or form be 
considered private information or proprietary information and 
denied to the Congress and to the veterans advocates. It is 
public money and we have a right to know how much money is 
being spent with what company. And therefore, we haven't been 
able to track subcontracting on any of the major primes in any 
agency including VA.
    In regard to Federal work-study, just to ensure that there 
is no match, this can only help and we would encourage this. 
You can call it a pilot program but it needs to go nationwide. 
And one of the reasons that program works and works well is the 
money follows the veteran where he or she can get a placement 
that is going to be congruent with their course of study and 
advance their future career.
    In regard to H.R. 6225, in terms of injunctive relief, in 
most cases, I think we need to look to tax relief for those few 
employers who are bearing the cost of this war along with those 
who are being mobilized in serving. And we need to look to 
incentives more. But at the same time, we need to tighten up 
the stick and Ms. Herseth Sandlin deserves great credit for 
introducing this bill to improve sanctions, and particularly 
injunctive relief.
    In regard to governmental institutions, one of the worst 
violators of USERRA is State and local and county governments 
all across the Nation. In regard to the Paralympics, we share 
with one codicil. We fully support this bill. And that is that 
it be specifically written in either to the Black Letter Law or 
to the Committee report that anything that is done with this 
program be congruent and complimentary and not, in any way, 
deleterious to the current winner games or to the wheelchair 
games currently under operation by VA.
    Last, but by no means least, has to do with H.R. 6272. And 
I thank Mr. Welch for introducing this legislation. It is a 
much needed tool. And the only thing I can suggest, though, is 
that we change the name of it to warrior opportunity 
conversion, something other than SMOCTA. ``Schmata'' is a 
Yiddish word that means something unclean. And in certain parts 
of the country, it was met with ridicule by employers. And 
being from New York, you know exactly what I mean, Mr. Hall.
    When we first got SMOCTA through, that acronym came out of 
nowhere and it didn't help us, let us put it that way, market 
the program, but it is an important program. And in this room 
in 1982, I testified on behalf of what became the Emergency 
Veterans Job Training Act, which essentially was the same 
program. And that later, the emergency was dropped later in the 
eighties and it became the Veterans Job Training Act. And then 
that expired. And due to the military conversion or downsizing 
subsequent to the Cold war in the first Gulf war, we got the 
servicemembers through. And we did get that renewed several 
years later, but we didn't get any funding for it and, 
therefore, the program died.
    This program, particularly when used in conjunction with 
the opportunity tax credit for disabled vets that Mr. Rangel 
got through Ways and Means in 2006, December 2006, proved to be 
very important marketing tools that can be used by disabled 
veteran outreach program workers, local veterans' employment 
representatives (LVERs) and others.
    For the record, since Labor has not publicized these two 
documents implementing that Work Opportunity Tax Credit (WOTC) 
for disabled vets, which is a very important tool, I would, 
with permission of the Chair, submit these to be included with 
the record, so at least the Congress can start to do what the 
Department of Labor is not doing.
    Last, but by no means least, I would be remiss if I didn't 
say that the Department of Labor and the service delivery 
mechanism that will use these tools, or theoretically use these 
tools, is severely compromised if indeed not broken. I would 
point out to the distinguished members of the panel here that 
conspicuously absent is any senior representative from the 
Veterans' Employment and Training Service of the United States 
Department of Labor here this afternoon to listen to what could 
be the essential tool that their people will pick up and use 
out in the field in order to get jobs for those young men and 
women returning.
    If it sounds like we are somewhat angry at this lack of 
diligence and this lack of passion for the job to be done, it 
is because it is justifiable. I have gone overtime, and I thank 
you very much for your indulgence Mr. Chairman and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Weidman, and referenced 
attachments, appears on p. 50.]
    Mr. Hall. Thank you, Mr. Weidman. Are you suggesting that I 
should not say SMOCTA in front of my Slovak Catholic mother?
    Mr. Weidman. Yes, sir, I am. And I am not going to go into 
the exact translation, but it is not something you want to say 
in front of your mom.
    Mr. Hall. Do you believe, Mr. Weidman, that under H.R. 
2721, a CD with veterans information is a good way to bridge 
the outreach gap between Federal agencies and veterans? You are 
talking about these information--the data sticks. There also 
are some that are transponders for Internet receivers and 
senders that are also doubled as data sticks. These sticks 
would enable the veteran to not only download or open up files 
that are in storage on the device, but also connect directly to 
a VA Web site. Would that strike you as a good idea?
    Mr. Weidman. The hot links are important. And the one thing 
that we spend a lot of time--the more time I spend with these 
young folks, the more I realize--find out what works, including 
in gifts that we give them. And it needs to be cool and it 
needs to be portable. Particularly for those in the combat 
arms. They like things that they can carry with them. That is 
why I suggest even in addition to that electronic device you do 
something that is a tri-fold or a quad-fold card that is die 
cut the same size as a credit card they can stick in their 
wallet.
    If you give that to them at the Transition Assistance 
Program or at the military hospital where they are recuperating 
from wounds, they will take that and stick it in their wallet, 
and you have all the key links in the Web sites of all the 
agencies on there. And they will pull it out when they need it. 
They are never going to find that tri-fold brochure that is 5 
by 11, they are never going to find a thick booklet. But this 
they will find and they will pull it out of their wallet or 
they will use the electronic device.
    Mr. Hall. Mr. Daley, would that address your concern about 
veterans from rural areas?
    Mr. Daley. Sure. The word has to get out there in the 
smaller towns, the rural areas. And I think that would really, 
really help. And, of course, we have the veterans one-stop 
locations there that they can go for information. So the more 
information we give them, the better.
    Mr. Hall. Absolutely. And sir, do you believe that if VA 
formalizes their agreements to work with the USOC that the VA 
will no longer support the national veterans wheelchair games 
or other similar events?
    Mr. Daley. That was a concern. But after talking with Mr. 
Huebner, that is not his goal at all. Everything that we have 
done in the past we will keep doing the same way. He has a 
broader interest to reach out into the communities, as he said, 
to get more people involved in activities and more veterans 
involved in activities of recreation and sports. So yeah, I 
think it is going to be a good situation.
    Mr. Hall. Thank you. Mr. Baker, DAV concerns on H.R. 2721 
are that the VA is not conducting outreach efforts to older 
groups of veterans, and you suggest disseminating this 
information to this group. Do you think a compact disk is not 
the most effective tool for this population? And what would you 
suggest? For instance, is this generation of veterans going to 
benefit from electronic media like a CD or would a pamphlet or 
reading material be more effective?
    Mr. Baker. I think the answer to that is mixed. Some of 
them are going to benefit. Some obviously aren't that computer 
literate. And that is certainly not the catchall answer to the 
older group. I believe the testimony we presented back in May 
on the older vets addressed some laws that are currently in 
existence that Congress has implemented in the past years that 
is meant to address older vets, and the VA just hasn't complied 
with. That is one avenue. This information or in written format 
is possibly one avenue to go about complying with that. First, 
they have to be identified, which is one of the requirements of 
the previous laws, and then it has to be assessed as to what 
they know and don't know about their benefits. But this could 
be certainly a potential mechanism for delivering that 
information.
    Mr. Hall. Thank you. And Mr. Sharpe, should the SMOCTA just 
be reauthorized or is there room for improvement?
    Mr. Sharpe. Both.
    Mr. Hall. Or would you also suggest another name?
    Mr. Sharpe. That is not an issue for us. But it is a 
concern that we do have a training program that meets the 
demands for today's employers and what is going on tomorrow. 
And if we can improve it more, the better.
    Mr. Hall. Thank you, sir. My time has expired, I will 
recognize Ranking Member Boozman for 5 minutes.
    Mr. Boozman. Thank you, Mr. Chairman. Again, I appreciate 
the testimony. We would like perhaps to submit some questions 
as they come up as we work with these things. As always I 
appreciate your testimony. You have really given us some good 
thoughts as to the different areas. On the Paralympic 
Committee, we have a little difference of opinion, but I think 
all of us agree that the primary thing that we are trying to do 
with all of these things is to serve the entire population. And 
that means guys that are just wanting to play pick-up all the 
way up to competing at a very, you know, at the top level.
    So I think I would really like to work with you and get 
that done, but I think we can get that done. Rick, the things 
about trying to get the information out, you know, what is the 
most valuable tool of doing that, I agree, and that might 
change. So you might want to look at maybe working with the 
author about maybe giving a range or something. But again, 
working with you guys, working with everybody to try and figure 
out how we can get the information out, that is a challenge. 
And I have been to many TAP programs and stuff, and I think the 
want to is there. I don't have any doubts in my mind. It is 
just difficult when you are dealing with people that are 
sometimes seriously injured, sometimes they are home, and I 
have been to the ceremonies when they come home, and they have 
their minds seeing a kid sometimes that they have never seen 
before.
    So you just have the whole gamut. But trying to use the 
technology that we have to get the message out so that they can 
keep it, and more importantly, have something to rely on or 
somebody to rely on in the future to get the information. So 
again, thank you all very much for your testimony and taking 
the time to be here today. It is very helpful.
    Mr. Hall. Thank you, Mr. Boozman. And if I may just follow 
up with Mr. Sharpe. You alluded to improvements in SMOCTA. 
Could you please elaborate on that?
    Mr. Sharpe. Again, our biggest concern is that with any 
training program, that the servicemembers are given the skills 
that will help them for today's economy. In many cases, many of 
the training programs that are currently in existence do not do 
that. Employers are looking elsewhere for skilled employees, 
and there is no need for that. There is no need for them to 
have to look overseas. We feel that our veterans should be 
trained with all up-to-date technology that will meet today's 
demands and plus in the future. So that is the kind of training 
program we are looking for.
    Mr. Hall. Under H.R. 6224 you state that veterans should be 
permitted to participate as VA work study students in Federal 
agencies. Do you propose that veterans be given internships at 
Federal agencies?
    Mr. Sharpe. Yes.
    Mr. Hall. And do you think that the requirements stated 
under H.R. 6221 should be extended to all Federal agencies, not 
just VA?
    Mr. Sharpe. Yes.
    Mr. Hall. Thank you. And last Mr. Baker, regarding H.R. 
4255 again, should not the veteran be able to decide whether he 
or she would like to compete? It would be beneficial if we had 
both competitive and recreational noncompetitive programs 
available.
    Mr. Baker. I agree 100 percent. I completely agree with 
that I should probably clarify something after speaking with 
Mr. Huebner during the break as well as listening to his 
statement. There is a chance we might be mistaken or 
misinterpreting the intent of the legislation. And we only want 
to make sure that the winter sports clinic in Snowmass doesn't 
become a competitive environment. Because that is literally the 
first time a lot of these people get on some of these devices, 
and it is strictly rehabilitation. That is not to say this law 
wouldn't promote some competitive nature elsewhere throughout 
the country. That is our only concern, is to shield that from 
becoming a competitive event.
    Mr. Huebner assures me that that is not the aim. I will 
certainly bring that message to our people in the DAV that run 
that program. Maybe they can get together to work out any 
differences or get a better understanding of the intent of the 
law. But I don't want to give that impression that we are 
against any competitive nature in the whole arena.
    Mr. Hall. Thanks for the clarification. I would say that 
the same thing applies to children and to nonveterans. There 
are some people who, by temperament, take well to competition 
and thrive in it. Yet, there are others who like to just 
compete against themselves, if you will, or try to get pleasure 
and improve their performance in whatever sport it is, be it 
adaptive or not.
    I think that making the whole range seems like a good thing 
to me. Mr. Boozman, do you have any more questions?
    Mr. Boozman. No, I don't.
    Mr. Hall. Well, thank you to our third panel for testifying 
before the Subcommittee. Thank you for your patience and your 
continued dedication to our Nation's veterans. You are now 
excused.
    And we invite our fourth panel to the witness table. 
Joining us on the fourth panel is Mr. Keith Pedigo, Associate 
Deputy Under Secretary for Policy and Program Management for 
the U.S. Department of Veterans Affairs, accompanied by Ms. 
Diane Hartmann, Director of National Programs and Special 
Events for the U.S. Department of Veterans Affairs. Welcome. 
Thank you for being here and thank you for your patience. As 
usual, your full written statement will be entered into the 
hearing record. Feel free to adjust it, shorten it, or 
elaborate on it.
    Mr. Hall. Mr. Pedigo, you are now recognized.

STATEMENT OF R. KEITH PEDIGO, ASSOCIATE DEPUTY UNDER SECRETARY 
     FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY DIANE HARTMANN, DIRECTOR, NATIONAL PROGRAMS AND 
    SPECIAL EVENTS, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Pedigo. Mr. Hall and Members of the Subcommittee, I am 
pleased to be here today to provide the Department of Veteran 
Affairs' views on pending legislation. Accompanying me is Diane 
Hartmann, Director of National Programs and Special Events. VA 
is still reviewing H.R. 6221, H.R. 6225, and H.R. 6272 and will 
provide views on those bills in a subsequent views letter.
    [The Administration views from VA for H.R. 6221, H.R. 6225, 
and H.R. 6272 appear on p. 65.]
    H.R. 2721 would require VA to develop and the Secretary of 
Defense to distribute to members of the Armed Forces, upon 
their discharge or release from active duty, a compact disk 
containing information that VA determines would help veterans. 
That information would include the benefits for which veterans 
may be eligible under the laws administered by VA, and a 
comprehensive explanation of how to apply for benefits and a 
list of all VA facilities.
    The bill would also require VA and DoD to maintain an 
Internet Web site with information clearly explaining VA 
benefits and other things. VA supports this bill. It would 
clearly enhance VA's already rigorous outreach and information 
dissemination efforts. H.R. 3786, the ``Servicemembers Telecom 
Contract Relief Act,'' and H.R. 6070, the ``Military Spouses 
Residency Relief Act,'' if enacted, would affect 
servicemembers.
    Therefore, VA defers to the Department of Defense regarding 
the merits of these bills. H.R. 4255, the ``United States 
Olympic Committee Paralympic Program Act of 2007'' would 
authorize VA to make a grant to the U.S. Olympic Committee to 
plan, develop, manage and implement the Paralympic Program for 
veterans and members of the Armed Forces. It also would require 
VA to inform all veterans with physical disabilities of the 
Paralympic Program, encourage their participation and require 
that VA ensure access to and appropriate use of facilities by 
program participants. VA opposes this bill because it is 
unnecessary, would divert funds intended for veterans care to 
nonveterans and would benefit only a limited number of 
veterans.
    VA has an established office of national programs and 
special events that oversees highly successful and well-
attended rehabilitative programs for disabled veterans. This 
office works with the USOC to help elite level athletes to 
compete in their Paralympic Programs. That office currently 
oversees four national events; the National Disabled Veterans 
Winter Sports Clinic, the National Veterans Wheelchair Games, 
the National Veterans Golden Age Games and the National 
Veterans Creative Arts Festival. Also, a pilot summer sports 
clinic scheduled for later this year in San Diego, California, 
is specifically designed for veterans with serious 
disabilities.
    Each year, thousands of disabled veterans have the 
opportunity for self-development through participation in these 
events. Among other things, a bill would require VA to notify 
and encourage participation of catastrophically injured 
veterans, many of whom would not be able to participate in 
these events. VA currently allows the USOC to distribute 
materials about the Paralympic Program at any of VA's offices 
of national programs and special events. Additional 
notification is unnecessary. Although we applaud the USOC's 
efforts to bring more veterans into their elite athletic 
competitions, we believe the VA's events are much more suited 
to providing the services veterans need. VA's goal is to 
introduce sports and other recreation to disabled veterans and 
make it a part of their daily lives. Our existing partnership 
with the USOC allows those who rise to elite athletic 
performance to take their training to the next level through 
the USOC Paralympic Program. We are in the process of 
estimating the costs that would be associated with enactment of 
this bill and will provide them for the record.
    [The Committee did not receive the costs for H.R. 4255, as 
introduced, since the provisions of that bill were included in 
S. 2162, which became Public Law 110-387 on October 10, 2008.]
    H.R. 6224, the ``Pilot College Work Study Programs for 
Veterans Act of 2008,'' would require the VA to conduct a five-
year pilot project to test the feasibility and advisability of 
expanding the scope of certain work study-related activities to 
include work study positions available on-site at educational 
institutions.
    These positions in the program may include those in 
academic departments and in student services. The bill would 
require VA personnel to supervise veterans in these positions. 
While VA supports the principle of exploring possible expansion 
of the work study allowances under the current statute, we do 
not support this bill because the activities now described in 
that section relate primarily to activities that support VA's 
mission of services and assistance to veterans and their 
dependants, whereas the types of activities proposed would not 
relate to that mission.
    In addition, VA's supervision of the work study 
participants would be administratively burdensome given the 
range of activities that would be involved throughout the 
university. This concludes my statement, Mr. Hall. I would be 
happy to entertain any questions that you or Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Pedigo appears on p. 58.]
    Mr. Hall. Thank you, Mr. Pedigo. And we look forward to the 
view's letter on H.R. 6221, H.R. 6225, H.R. 6272 and the cost 
estimate of the other bill, H.R. 4255.
    In the report from the Office of the Inspector General for 
VA, it seems that VA makes purchases for the Department of 
Defense. Yet, the VA has a memorandum of agreement with the 
Department of the Army to have the Army do purchases for the 
VA. Why is that?
    Mr. Pedigo. Mr. Hall, I am not at all familiar with that 
issue. But I would be happy to try to get you a response for 
the record.
    [The answer is included in the response to Question 1 of 
the Post-Hearing Questions and Responses for the Record, which 
appears on p. 64.]
    Mr. Hall. Thank you. You can add that to the package of 
things you are sending us. Under H.R. 6224, you state that it 
would be administratively burdensome for the VA to supervise 
work study participants as outlined in the bill. Could the VA 
delegate supervisory duties to the university?
    Mr. Pedigo. I believe that would be a possibility. We do 
have some programs that we administer where we do delegate 
responsibility. And if given the statutory authority to do 
that, I think that that would be an improvement to that 
proposal.
    Mr. Hall. Is the Office of National Programs and Special 
Events (ONPSE) a permanent office?
    Mr. Pedigo. Mr. Hall, I am going to ask Ms. Diane Hartmann 
to respond to that question.
    Ms. Hartmann. Thank you, sir. The Office of National 
Programs and Special Events was formed in 2001. It is a 
permanent office.
    Mr. Hall. Thank you, Ms. Hartmann. And what is the current 
budget of ONPSE?
    Ms. Hartmann. I am sorry.
    Mr. Hall. The current budget of the Office of National 
Programs and Special Events.
    Ms. Hartmann. Right now the budget is $4.6 million. That 
includes the operational costs of the events as well as staff.
    Mr. Hall. Thank you. And last, to Mr. Pedigo, thank you for 
taking part in our round table discussion on outreach. 
Regarding H.R. 2721, I would assume and encourage you to 
coordinate with the outreach effort that we discussed with the 
Ad Council, and to make it as holistic as possible, as you 
develop this concept of whether it is a compact disk or a 
memory stick or whatever device seems to be most widely 
accepted among our veterans in different age groups. I am sure 
you are thinking that way, but I just wanted to mention that 
because some of us in this room maybe weren't at the round 
table discussion. And that is all the questions I have. I will 
turn now to Ranking Member Boozman for his questions.
    Mr. Boozman. Thank you Chairman Hall. First of all thank 
you all so much for your hard work for veterans and we really 
do appreciate you Mr. Pedigo and Ms. Hartmann for all that you 
do. I am a little confused about the recreational therapy 
programs. Let me just read this, and then I will follow up. The 
Committee staff Members have attended several of the Paralympic 
Military Sports summits, and that means held their significant 
resistance at the VA Medical Center level defending 
recreational therapy programs.
    Please describe who has overall responsibility for the 
recreational therapy program of VA and is there a budget line 
item for the program. I think earlier we heard testimony to the 
effect that when you actually go out and talk to these men and 
women, there is a problem in the sense they don't want to be at 
the hospital their whole life or that kind of situation, you 
know, playing basketball or whatever they are doing. So can you 
address that for me.
    Ms. Hartmann. Yes, sir, I can. First of all, the Recreation 
Therapy Program is part of patient care service, which is under 
the Veterans Health Administration. The National Programs 
Office is separate from that. Originally all of our national 
programs started in recreation therapy and they were separated 
and elevated to a higher level. As far as the----
    Mr. Boozman. And are they on-site?
    Ms. Hartmann. Yes, sir. Well, the national office is, but 
our planning staff is around the country because our events 
move from one location, one Medical Center to another year to 
year. So I have staff in the field that it is constantly 
working on events. We usually work 3 years of programs during 
the year. As far as the question about the difficulty of staff 
getting to these programs, that is true. About 8 years ago, it 
was very difficult for recreation therapists and caregivers as 
well as veterans to have funding to get to these events. Once 
this program was elevated, there was quite a bit of policy 
developed and consistency put together among the programs so 
that these programs would be recognized as part of medical care 
and part of recreation therapy. That our veterans who are 
attending would be given caregivers when necessary to go with 
them. And those caregivers would be given official travel and 
administrative leave. There still are issues that the funding 
to get the participants as well as the VA staff to these 
programs is not always part of the budget of the Medical 
Center. A lot of the money is fundraised at a local level. And 
a lot of the money that gets the participants there are raised 
by our service organizations.
    Mr. Boozman. Can you--I guess I would really like to know 
what kind of money that we are talking about how much that 
budget item would be to fully fund that.
    Ms. Hartmann. To fund staff and participants.
    Mr. Boozman. Yes ma'am.
    Ms. Hartmann. Sir, we can work out, those numbers.
    [The answer is included in the response to Question 3 of 
the Post-Hearing Questions and Responses for the Record, which 
appears on p. 64.]
    Mr. Boozman. Again, I really feel strongly that for certain 
individuals, and the Chairman addressed it. There are 
individuals that want to exercise and compete at all different 
levels. But I really do think part of the healing process, part 
of the rehabilitation, this stuff really can be very, very 
important, for certain individuals. Not necessarily for 
everybody, although there probably is something for everybody 
if we can find it. But the ability to actually access it is 
real important. Now, I have been pleased because it seems like 
my experience has gotten a little bit better in some locations. 
But I would like to know again what kind of money that we are 
talking about. And so how would you address the problem, the 
criticism of people not wanting to be in that setting all the 
time, the guy that gets out of the hospital--do you see what I 
mean?
    Ms. Hartmann. I understand. I don't believe that I am the 
appropriate person to address that. I do not have a clinical 
background so it would be inappropriate for me to say that. As 
an observer, truly nonclinician I see very positive aspects 
just from the first time someone is introduced to a new 
activity or sport to when the end of the day after they have 
had a lesson.
    Mr. Boozman. But if that were a concern, if you were able 
to say yeah, this is a positive thing, if the clinicians told 
you that, would you agree that we are not funding that like we 
should based on if it was a very positive thing?
    Ms. Hartmann. Yes, I would. I think that the recreation 
therapy programs at VA could absolutely benefit, and our 
veterans would definitely benefit by additional funding.
    Mr. Boozman. Good. That is very helpful. I mean you all, 
you know you all work with the money that you are given and we 
ask a lot of you. But like I said that is very helpful. Thank 
you Mr. Chairman.
    Mr. Hall. Thank you, Mr. Boozman. I also am curious, Ms. 
Hartmann, about the noncompetitive programs and special events. 
If you are not the person to describe them, or if you are, 
would you do that a little bit? If not, maybe you could send us 
a summary of what they are. If it is a separate budget that the 
Office of National Programs and Special Events has, I am 
curious about the statement that it would benefit only a 
limited number of veterans I think if it were structured, as we 
see it being structured in terms of applying to all competitive 
and noncompetitive individuals, it should benefit a great 
number of veterans. Certainly considering the number of serious 
injuries that we are seeing in Operation Iraqi Freedom, it 
would be good if Operation Enduring Freedom returnees today it 
have these kinds of recreational and/or competitive programs 
available to as many of them as possible.
    Ms. Hartmann. I will be happy to try to clarify the 
competitive and noncompetitive. We have two programs now, our 
winter sports clinic and our summer sports clinic which are 
noncompetitive. They are clinics. They are an introduction to 
sports and leisure activities. The winter sports, of course, 
having the key basis around winter activities, and the summer 
will be summer sports.
    In addition to those two components of both summer and 
winter, we also introduced the leisure activities, which are 
activities that the veterans can take home and do that they 
don't need a mountain for, such as scuba diving or trap 
shooting or rock climbing. Those types of things where they can 
go home to their local community and do it; cycling, kayaking 
for the summer games. They don't have to have an ocean to kayak 
or to do cycling. So additionally we will do golf, which we 
have already in two of our programs.
    So those are the noncompetitive. The wheelchair games, the 
golden age games and the creative arts festival are all 
competitive. They are competitive locally where through the 
recreational therapy programs they are introduced to these 
activities, and then the therapists work with them. And of 
course, we have the organizations like PVA who have the local 
chapters who do a lot of local programs for the veterans to get 
involved and to learn--I mean to really develop the competitive 
skills. Then they come to the national program to compete. In 
the national program with our partnership through the 
Paralympics, we have been able to identify some veterans that 
have the elite level potential. And they have gone on to both 
the Paralympic Military Program. And as Mr. Huebner said, this 
year we have six veterans who are part of the Paralympic team. 
Four of those individuals actually rehabbed at VA Medical 
Centers and were introduced to sports through VA recreation 
therapy programs and participate at our national programs.
    I have to tell you that I think the concept is extremely 
supported by VA, and especially by I know my staff, the 
concept. Because we have no way of knowing where the funding 
will come from, we have to assume that it is going to come from 
existing dollars. And therefore, we strongly feel that if we 
are going to put the existing dollars into recreation therapy, 
it should be within VA's programs that exist already instead of 
out into the community. Therefore, more veterans would be able 
to benefit by the use of that money.
    Mr. Hall. Thank you. And just lastly, could I ask if you 
have a rough number of disabled veterans who are taking 
advantage of these programs and approximately what percentage 
that might be of the total number of disabled veterans?
    Ms. Hartmann. I can tell you that this past year at the 
national events, we had 1,638 veterans. I do not know the 
percentage versus the number of disabled veterans, but I will 
be happy to find that number for you.
    [The answer is included in the response to Question 2 of 
the Post-Hearing Questions and Responses for the Record, which 
appears on p. 64.]
    Mr. Hall. Thank you very much. Ms. Hartmann, Mr. Pedigo, 
thank you for the work that you are doing and for testifying 
before the Subcommittee today. It is very important that we in 
Congress continue to reevaluate existing laws and review 
legislative proposals so that we may provide our men and women 
in uniform, and our veterans and their dependants the benefits 
and safeguards that they need to reintegrate back to civilian 
life. This hearing has provided us with good feedback and I 
look forward to continuing this important dialogue. Again, 
thank you for your patience and the work that you do. Thank you 
to all of our panelists for participating in today's 
legislative hearing. This hearing now stands adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    Today we have eight bills before us that seek to: authorize the VA 
to make a grant to the United States Olympic Committee to provide and 
develop activities for servicemembers and veterans with physical 
disabilities; allow military servicemembers to terminate certain 
contracts when called to active duty service or ordered to change 
permanent duty assignment; require the VA to develop and DoD to 
distribute a compact disk of benefits information to servicemembers 
preparing to depart from the military; amend the Servicemembers Civil 
Relief Act to allow a military spouse to claim the same state as the 
servicemember in regards to state and property taxes, and voter 
registration; and reauthorize the Service Members Occupational 
Conversion and Training Act of 1992.
    Some of you might recall that on February 13, of this year, we 
conducted a hearing on expiring programs. In this hearing, we received 
recommendations on ways to improve on the programs and expand on 
veterans rights. One such recommendation came from Mr. Matthew Tully of 
Tully and Rinckey LLC who specializes in law under the Uniformed 
Services Employment and Reemployment Rights Act, also known as USERRA.
    Mr. Tully brought up an example of how a servicemember who had 
sought injunctive relief from his employer but the court denied his 
request. Mr. Tully recommended that the Subcommittee consider amending 
USERRA to allow servicemembers, such as the one that was cited, to 
ensure equitable relief is available to USERRA victims when the courts 
decide it's appropriate.
    I share the concerns expressed by Mr. Tully and recently introduced 
H.R. 6225, Injunctive Relief for Veterans Act of 2008. This bill will 
amend Title 38 by changing ``may'' to ``shall'' and it is our 
expectation that more courts will use this remedy when deemed 
appropriate that equitable relief is warranted. This legislation is a 
step in the right direction to providing greater protections and 
safeguards to those that have answered the call to duty.
    A second bill that I recently introduced is H.R. 6224, the Pilot 
College Work Study Programs for Veterans Act of 2008. This bill 
contains similar language that I proposed in H.R. 5684, the Veterans 
Education Improvement Act of 2008, which would improve on existing 
educational entitlements for our veterans.
    H.R. 6224 would direct the Secretary of the Department of Veterans 
Affairs to conduct a 5-year pilot project to expand on existing work-
study activities for veterans. Currently, veterans that qualify for 
work-study would be limited to working on VA related work. My bill 
would allow those veterans the option of working in academic 
departments and student services. This change would put them at par 
with students that qualify for a work-study position under programs not 
administered by the VA.
    Furthermore, this bill would conform to existing paygo rules by 
funding this pilot program from discretionary appropriations.
    I look forward to working with Ranking Member Boozman and other 
Members of the Committee to discussing my two legislative proposals and 
those being considered in today's legislative hearing.
    It is very important that Congress continue to reevaluate existing 
laws and review legislative proposals so that we may provide our men 
and women in uniform, our veterans and their dependents the benefits 
and safeguards they need to reintegrate back to civilian life. This 
hearing has provided us with good feedback and I look forward to 
continuing this important dialog.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member,
                  Subcommittee on Economic Opportunity

    Thank you Madame Chair.
    Today, we will hear testimony on eight bills covering diverse 
issues facing veterans and their families. I am especially pleased that 
you have included my bill, H.R. 6221, a bill to close a possible 
loophole in VA's disabled veteran business contracting and acquisition 
programs. I am also very pleased that you are an original cosponsor of 
H.R. 6221 and I look forward to working with you on this wide range of 
bills.
    I would offer one thought on the bill to reauthorize the long-
expired Servicemembers' Occupational Training Act or SMOCTA. The goal 
of SMOCTA was to retrain veterans with few or no transferable military 
skills in skills better-suited to today's job market. This is a worthy 
goal and I support it and commend our colleague from Vermont for 
bringing this issue to us.
    There are several ways to offer retraining and I would like to 
explore with you whether it would be more effective to reauthorize 
SMOCTA or take several SMOCTA concepts and use them to expand VA's 
existing On-the-Job-Training (OJT) and apprenticeship programs for both 
recently discharged veterans and those who have passed their 
eligibility date for GI Bill benefits.
    Given the current awareness of education and training for veterans, 
we may have an opportunity here to put more veterans into good jobs. I 
know you share that goal and I look forward to working with you, Mr. 
Welch and our colleagues on the Committee to make that happen.
    I yield back.

                                 <F-dash>
                 Prepared Statement of Hon. Bob Filner,
             Chairman, Committee on Veterans' Affairs, and
       a Representative in Congress from the State of California

    I appreciate the opportunity to speak on H.R. 4255, the United 
States Olympic Committee Paralympics Program Act of 2007, which I 
introduced earlier this Congress.
    For many servicemembers and veterans who have been severely injured 
from service to our country, their rehabilitation can be a 
disheartening experience. Many become concerned about having the same 
quality of life that they had prior to their injuries.
    Programs administered by the U.S. Olympic Committee (USOC) 
Paralympic Military Program can enhance and improve the quality of life 
for these men and women by introducing them to an active lifestyle 
while they heal from their wounds.
    Today, the USOC programs have been providing support for severely 
injured military servicemembers and veterans since 2003, introducing 
them to adaptive sport techniques. These opportunities will enable our 
veterans to face their new physical realities and to continue living an 
active lifestyle through adaptive sports.
    We know that there is a growing population of veterans that have 
survived serious injuries that would benefit from the good work being 
done by the USOC. This is why I have introduced H.R. 4255, the United 
States Olympic Committee Paralympic Program Act of 2007, to support our 
heroic men and women as they transition through this difficult phase in 
their lives.
    H.R. 4255, will authorize the Secretary of Veterans Affairs to make 
a grant to the USOC to provide: paralympic instruction, competition 
activities, and training program development activities for 
servicemembers and veterans with physical disabilities.
    The purpose of the program in my bill is to enhance the 
rehabilitation and quality of life of current severely injured 
servicemembers and veterans and to reduce the chance of secondary 
medical conditions.
    To date, more than 1,200 injured veterans have been introduced to 
paralympic sports as a result of these training programs, but much more 
needs to be done in order to continue to provide this dynamic 
rehabilitative environment.
    I ask all my colleagues to join me in supporting my bill H.R. 4255 
and our nation's severely injured veterans.

                                 <F-dash>
                Prepared Statement of Hon. Zoe Lofgren,
       a Representative in Congress from the State of California

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
distinguished colleagues, thank you for the opportunity to testify 
today in support of my bill H.R. 3786, The Servicemembers Telecom 
Contract Relief Act.
    As the Committee on Veterans' Affairs observed in the report 
accompanying the Servicemembers Civil Relief Act, ``Congress has long 
recognized that the men and women of our military services should have 
legal protections so they can devote their entire energy to the defense 
needs of the Nation.'' The bill I offer today for your consideration is 
but a modest step in providing those legal protections, but it is an 
important one.
    A constituent call first led me to examine this issue, but further 
research and discussions disclosed other instances in which 
servicemembers had difficulties suspending or terminating contracts for 
telecommunication services after receiving orders for overseas 
deployment. Although many service providers have express policies for 
suspension or termination of telecommunication contracts for those 
called to active service, those policies weren't always followed. Some 
degree of certainty regarding the rights and obligations of 
servicemembers is therefore necessary.
    H.R. 3786 provides that certainty. The bill allows members of the 
armed services to suspend or terminate contracts for telecommunications 
services when those services are no longer of any use to them because 
of a call to active duty, an involuntary extension of the period of 
military service, or deployment overseas to locations where those 
services are not available. In so doing, the bill tracks similar 
provisions in the Servicemembers Civil Relief Act that allow someone 
called to active service to terminate leases for a house, apartment, or 
automobile.
    Extending this relief to telecommunication services makes sense. At 
a time when soldiers must concentrate on their mission and their 
safety, they shouldn't be worrying about bills for their cell phones, 
cable, or Internet service back home. As the mother of one soldier 
serving in Iraq put it, her son ``is over there risking his neck, and 
he shouldn't have to deal with a cell phone company.''
    In no way do I mean to suggest that this bill is in response to 
widespread negligence or malfeasance by telecommunication service 
providers. In the overwhelming majority of cases, those providers have 
demonstrated their commitment to our troops and have been flexible in 
dealing with contract disputes. Indeed, most service providers adhere 
to the letter and spirit of their policies providing for contract 
cancellations or suspensions for servicemembers put on active duty.
    This legislation merely provides additional recourse--and peace of 
mind--in the handful of cases in which there is uncertainty about a 
servicemember's obligations after being called to active duty. At that 
time, the cable bill should be the furthest thing from the mind of 
someone charged with defending our country.
    Representatives of the telecommunications industry have reached out 
to my office to recommend changes to harmonize this legislation with 
the Communications Act and to refine certain other provisions. I 
appreciate the cooperative spirit in which those suggestions have been 
made and intend to adopt many of them should this bill proceed to 
markup.
    Finally, I wish to clarify that while my bill is narrower than H.R. 
3298, introduced by Mr. Murphy of Pennsylvania, I do support his bill, 
which I have cosponsored. I chose to focus exclusively on 
telecommunications services because of the unique importance of those 
services to my constituents in Silicon Valley. We are acutely aware of 
the growing role that telecommunications play in keeping us connected 
to one another. Advances in telecommunications technology have 
extraordinarily enhanced the ability of our active servicemembers 
abroad to stay in touch with loved ones back home. My bill ensures that 
telecommunication services remain a benefit rather than a burden to 
those servicemembers.
    Thank you for the opportunity to testify today about this important 
legislation.

                                 <F-dash>
             Prepared Statement of Hon. Dennis A. Cardoza,
       a Representative in Congress from the State of California
    Madam Chair and Members of the Subcommittee,

    Thank you for inviting me here today to testify on an issue that 
I'm sure we will all agree will make life just a little bit easier for 
our Nation's veterans.
    We continue to owe a debt of gratitude to our brave servicemen and 
women for their sacrifices to support and defend our great nation. This 
Congress is working tirelessly to ensure our veterans are afforded the 
honorable treatment and benefits that they deserve. But beyond 
providing benefits for our brave servicemen and women when they return 
home, we must ensure our veterans are actually receiving the benefits 
they have earned.
    In meeting with veterans throughout my district, time and time 
again I have heard about the difficulty of navigating the Veterans 
Administration bureaucracy, and I have heard about cases of incomplete 
or untimely submission of paperwork. However, I have also heard too 
many times that veterans simply are unaware of the benefits they are 
eligible for.
    In several instances, veterans have told me that upon being 
discharged and returning to the U.S., they must sit through a 
transitional process meeting explaining some of their benefits programs 
immediately upon exiting the plane. Madam Chair, I'm sure you will 
agree that after fighting for our country and being away from loved 
ones for months at a time, that the last thing on our troops' minds is 
their benefits. They are tired from the battlefield. They are tired 
from an exhausting flight. They are longing to see their families and 
put their arms around a mother, a father, a wife, a husband, a 
daughter, or a son. This process meeting may be the only time some 
veterans hear about their benefits and more often than not this is a 
missed opportunity. There is a time and a place for this meeting to 
occur; when families and loved ones are waiting beyond the gates, that 
certainly is not the time.
    Others have told me that in their briefings with a VA 
representative, they only have 5 minutes, with dozens of other veterans 
awaiting their 5-minute briefing. The veterans receive incomplete 
information, they are handed a few pamphlets, they feel rushed, and 
they are unable to ask any questions because of the time constraints. I 
respectfully ask the Subcommittee to consider for a moment how in the 
world can anyone explain all of the available benefits to which a 
veteran is entitled in 5 minutes--let alone answer any questions he or 
she may have.
    Our Nation's veterans, many readjusting to civilian life after 
returning from combat, deserve the best treatment and care available. 
They are entitled to all the benefits they have earned. The last thing 
veterans deserve is to be given incomplete information or the run-
around by governmental red tape.
    Madam Chair, my bill, H.R. 2721, is quite simple. It would require 
the Secretary of the VA to issue comprehensive CD-ROMs to returning 
veterans that clearly explain the benefits to which they are entitled. 
The CD would inform returning veterans and their families in plain 
English about how to access and navigate the VA so they know about all 
the benefits they have earned, and how to go about receiving them.
    This would provide a one-stop source for veterans where they can 
simply pop a CD into their computer whenever they wish to look up 
information so no benefit slips through the bureaucratic cracks. I 
understand that the VA currently outlines some information on their 
website; this information is not comprehensive. My bill also requires 
full, complete, and updated information to be provided on the VA 
website. However, a CD is still necessary and would benefit districts 
like mine with large rural areas where access to the Internet may not 
always be reliable.
    This bill only fixes the process, not the symptoms, and is just one 
small step in the right direction to ensure our veterans who served so 
honorably receive the benefits they have earned. But I believe that if 
we fix the broken informational process, we are going a long way toward 
solving the benefits problem. Our veterans should be able to depend on 
our country, just as our country depended on them, and I believe that 
giving troops the informational tools they need to ensure they receive 
their well-deserved benefits is the least we can do on behalf of a 
grateful Nation.
    Thank you again for allowing me to be here, and I would be happy to 
answer any questions you may have.

                                 <F-dash>
               Prepared Statement of Hon. John R. Carter,
          a Representative in Congress from the State of Texas

    Section 1: Short Title

    <bullet>  Names the bill the ``Military Spouses Residency Relief 
Act.''

    Section 2: Guarantee of Residency for Spouses of Military Personnel

    <bullet>  Amends section 705 of the Servicemember's Civil Relief 
Act to state that the spouse of an active duty servicemember may 
maintain his or her voter registration in the same state as the 
servicemember regardless of where military orders send them.

    Section 3: Residency for tax purposes

    <bullet>  Amends section 511 of the Servicemember's Civil Relief 
Act to state that a spouse of an active duty servicemember may maintain 
the same state of residency as the servicemember for state taxation. 
The section specifically states that personal property and income taxes 
shall be taxed by the state of domicile, not the state where they live 
due to military orders.

                                 ______
                                 
    Madame Chairwoman and Members of the Committee, good morning. 
First, I would like to thank you for your commitment to our veterans 
and servicemembers. It has been an honor to work hand-in-hand with you 
as a member of the Military Quality of Life and Veterans Affairs 
Appropriations Subcommittee in an effort to improve the lives of those 
that have given so much for our Nation's freedom. I am honored to be 
here and happy to discuss H.R. 6070, the Military Spouses Residency 
Relief Act with you.
    As you are all aware, the Servicemember's Civil Relief Act (SCRA) 
provides basic civil relief to our men and women in the Armed Services 
in exchange for their voluntary service. These range from relief from 
adjudication while deployed in combat to maintaining a single state of 
domicile regardless of where their military orders may send them. This 
state of domicile provides an important stability for our soldiers, 
airmen, and marines. Though their orders may send them to Texas, 
Virginia, and California, they are able to simplify their state income 
tax requirements, maintain property titles and driver's license in a 
single state, and continue to vote for the elected officials from their 
hometown. Without the SCRA protections, the servicemember would see all 
of these concerns change every time they move to a military 
installation located in a different state.
    However, the composition of the military has changed since SCRA was 
first written. It is no longer enough for this Committee, the Congress, 
and the Department of Defense to provide relief to just the men and 
women that have volunteered to protect us. We no longer deal with a 
primarily unmarried fighting force. The saying ``We recruit a soldier 
but retain a family'' could not be any more accurate. While our 
servicemembers receive this important civil relief, we do not offer the 
same protections to those that bear the same stress and responsibility 
as the member--their spouse. Over the course of their spouse's career, 
they face multiple changes of voter registration and drivers' licenses, 
will pay income tax to a state they never intended to live in, and 
likely not have their name on any property titles leading to a feeling 
that they are second class citizens.
    My bill would amend the SCRA to allow a military spouse to claim 
the same state of domicile as the servicemember for the purposes of 
state income and property taxes as well as voter registration. This 
policy would prevent a military family from suddenly losing up to 9.3 
percent of their income if they were to be restationed from Fort Hood 
to Fort Irwin, up to 8.25 percent if they were to move from Fort Bliss 
to Schofield Barracks, or up to 8.97 percent if they were to go from 
Lackland Air Force Base to McGuire Air Force Base. This is a 
significant loss of income that occurs only because of government 
orders.
    H.R. 6070 also affords legal protections to spouses that they do 
not currently have because they do not have their names on deeds and 
titles. While this may not seem a pressing issue, consider the legal 
ramifications should a servicemember and his or her spouse decide to 
end their marriage. While this is a worst case scenario that I would 
hope as few of our men and women in uniform must endure, it is a 
realistic situation that this Congress should address.
    In closing, in a time when retention and recruitment is so 
important, we must take every opportunity to remove potential 
disincentives to serving in our Nation's military. While you and I may 
not think of this as one of the most pressing issues for our 
servicemembers, for these husbands and wives, it is one more stressful 
change they have to deal with as they help lead their families through 
restationing and deployment. I urge the Committee to join myself and 68 
other Members of Congress in support of this important change to the 
Servicemember's Civil Relief Act.

                                 <F-dash>
                Prepared Statement of Hon. Peter Welch,
         a Representative in Congress from the State of Vermont

    Thank you Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee for the opportunity to testify on behalf of 
H.R. 6272, the SMOCTA Reauthorization Act, authorizing discretionary 
appropriations to carry out the Service Members Occupational Conversion 
and Training Act of 1992.
    The SMOCTA program was authorized throughout the nineties to assist 
veterans in finding employment after their military careers. Our 
veterans deserve this program today.
    This important program was originally established to respond to the 
needs of veterans who had been hurt by the downsizing of the military, 
especially personnel whose specialty did not have direct applicability 
in the civilian employment market. Specifically, veterans eligible for 
assistance were those with military occupations that were not 
transferable into the private sector; those that were unemployed for a 
long period of time; and those with a 30 percent or greater service-
connected disability.
    SMOCTA reimbursed employers to offset their cost of training 
recently separated servicemembers for stable and permanent positions 
that involve significant training, usually lasting between 6 and 18 
months. Besides the reimbursements to employers, SMOCTA provided funds 
for assessments, development of training plans, and supportive services 
for the trainee. In exchange for this assistance, employers guaranteed 
jobs for veterans.
    According to the Paralyzed Veterans of America, SMOCTA was 
considered one of the better programs to serve transitioning military 
personnel.
    Today, with a tough economy and the high demands we place on our 
veterans, the rational for reestablishing SMOCTA is stronger than ever.
    According to a May, 2008 Bureau of Labor Statistics report, Gulf 
War-era II veterans aged 18 to 54 years had a higher unemployment rate 
(6.5 percent) than did non-veterans (4.7 percent) in 2006. In addition, 
at 7.5 percent in 2006, the unemployment rate of Gulf War-era II 
veterans aged 25 to 34 years was higher than the 2006 unemployment rate 
of non-veterans in the same age group (4.6 percent).
    As disturbing as those figures are, the situation will likely only 
become more dire for new veterans. More and more of those who have 
served in Iraq and Afghanistan will return home as civilians, and they 
will find an economy that is on the brink--an economy that just 
experienced its sharpest 1-month increase in unemployment in 22 years, 
to 5.5 percent in May from 5 percent in April.
    If you serve your country in the military, you should have the 
opportunity to return home, find a job, have a career, and support your 
family. Our brave men and women in uniform have given us so much. They 
deserve to come home with the support necessary to provide for 
themselves and for their families that have already sacrificed so much.
    It is our job, as Members of Congress, to make sure that our Nation 
lives up to its commitment to our veterans. It is a simple pact we have 
made with our troops--and one we are obligated to fulfill: After they 
have sacrificed to serve our country on the battlefield, we must do all 
we can to serve them here at home.
    A reauthorization of SMOCTA could not be more timely. Simply put, 
more troops are coming home from battle at a time when there are fewer 
jobs for American workers. In addition, the global economy is becoming 
more and more complex and demanding of new skills. We know our troops 
possess the work ethic, the intelligence, and the discipline to succeed 
in any environment, from the battlefield to the boardroom. As Members 
of Congress, we need to ensure that veterans are as equipped to compete 
for jobs in the economy as they were trained to defeat our adversaries 
in combat.
    SMOCTA reauthorization has the support of many of the Veteran 
Service Organizations (VSOs), including the American Legion and 
Paralyzed Veterans of America, and the National Association of State 
Workforce Agencies.
    I thank the Subcommittee for your consideration of this important 
legislation and am happy to answer any questions you may have.

                                 <F-dash>
                 Prepared Statement of Charles Huebner,
         Chief of Paralympics, United States Olympic Committee

    1.  Paralympic Sport, which is sport for physically disabled 
individuals, began as a rehabilitative tool for injured World War II 
service personnel.
    2.  In 1998 Congress mandated that the USOC should serve as the 
National Paralympic Committee for the U.S.
    3.  Since that time the USOC has grown its Paralympic division and 
today spends more than $12 million on Paralympic programs.
    4.  In recognition of a need coupled with the USOC's expertise, 
U.S. Paralympics has launched programs that introduce Paralympic sport 
to injured active duty and veteran servicemen and women as a tool for 
their rehabilitation and a vehicle for a return to an active lifestyle.
    5.  While the USOC is pleased that some of these programs have so 
far produced five individuals who will represent the U.S. at the 
Paralympic Games in Beijing this summer, the principal purpose of these 
programs is to bring the USOC's experience and expertise to bear in 
this area in order to serve a deserving population.
    6.  The USOC intends to partner with a number of community-based 
and veterans service organizations to create Paralympic programs in 
communities across the nation.
    7.  The bill under consideration, ``the United States Olympic 
Committee Paralympic Program Act of 2007,'' (HR 4255) will serve to 
expedite the creation of these programs and, therefore, enable the USOC 
to serve more members of this deserving population more effectively.

                                 ______
                                 
    Good afternoon Madam Chairwoman and Members of the Subcommittee. My 
name is Charles Huebner and I am the Chief of Paralympics, for the 
United States Olympic Committee. I appreciate the opportunity to 
testify on HR 4255, the ``United States Olympic Committee Paralympic 
Program Act of 2007,'' that would create an opportunity for the U.S. 
Olympic Committee, in collaboration with Veterans, Paralympic, and 
community-based organizations, to serve as an extension to the 
Department of Veterans Affairs in providing programs and mentors to 
disabled Veterans in communities throughout the United States.
    By way of a brief background, the USOC is an organization chartered 
by Congress through what was formally known as the Ted Stevens Olympic 
and Amateur Sports Act. In amendments to the Act in 1998 the USOC was 
given the additional responsibility of serving as the National 
Paralympic Committee for the United States, a function that in most 
other countries is governed by a separate organization. Paralympic 
activity is sports for physically disabled athletes, and the Paralympic 
Games are held approximately 2 weeks after the Olympic Games and at the 
same Olympic venues.
    The Paralympic Movement began shortly after World War II, utilizing 
sports as a means of rehabilitation for injured military personnel 
returning from combat. The Paralympic Games have become the second 
largest global sporting event behind the Olympic Games, with more than 
180 Countries and 4,000 physically disabled athletes expected to 
participate in the 2008 Paralympic Games in Beijing.
    The USOC today spends more than $12 million dollars annually on 
Paralympic programs, all of these funds, of course, from private 
sources. And Paralympic organizations throughout the U.S. spend an 
additional $30 million dollars at the local level to provide sports and 
physical activity programs for persons with physical disabilities.
    The Paralympic movement today exists because of the needs of 
injured veterans. And when I speak of the Paralympic movement, I am not 
talking about a small number of persons that will make future 
Paralympic teams, I am speaking of a movement and individuals with 
physical disabilities that are using the simple platform of sports to 
re-enter life. I'm talking about a population that is educated, 
employed, is active in their communities, promotes excellence and 
inspires Americans to achieve and overcome obstacles. Let me give you a 
few examples.
    Veteran Kortney Clemons, who currently resides in Chula Vista, 
California, was injured in Iraq in 2003. In 2004 Kortney participated 
in a Paralympic Military Sport Camp conducted at the Olympic Training 
Center in Colorado Springs, Colorado. Last month he graduated from Penn 
State University. Last week he started an internship at San Diego 
Adaptive Sports and is pursuing his career interest of being a 
Therapuetic Recreation Specialist in the Paralympic movement.
    Veteran Scott Winkler of Augusta, Georgia, was injured in Iraq. 
Last Saturday in Tempe, Arizona, Scott earned the honor of representing 
his country again, this time at the Paralympic Games. More importantly, 
Scott founded a local program in Augusta to provide physical activity 
for injured military personnel and persons with physical disabilities.
    In the past 2 weeks, the USOC and our partners accomplished the 
following:

    <bullet>  Twenty Veterans participated in a Paralympic Veterans 
program in Alabama led by Marine Veteran and Paralympic mentor Carlos 
Leon;
    <bullet>  More than 18 veterans participated in a Paralympic 
veterans program in Oklahoma led by Army Veteran, Paralympic mentor and 
University of Arkansas graduate John Register, and;
    <bullet>  The USOC launched a pilot program at Ft. Lewis, 
Washington, focused on providing program support and mentors for the 
more than 700 individuals currently in the Warrior Transition Unit at 
that base.

    In 2008, the USOC and our partners will provide ongoing programming 
at the community-level for more than 2,000 Veterans. We expect to 
increase this number significantly in 2009.
    In 2008 we will also celebrate as five former members of the United 
States military who were injured in defense of their country again don 
a uniform, but this time the uniform of Team USA, to represent their 
country at the 2008 Paralympic Games. This is a great story for 
America, and the American people.
    By utilizing our experience, expertise and understanding of the 
impact of sport on the physical and mental and emotional rehabilitation 
process for young men and women that are newly disabled, the USOC 
Paralympic Military and Veterans Program that introduced Paralympic 
sport to these men and women is serving as an effective vehicle for 
their return to an active lifestyle. Components of the Paralympic 
Military and Veterans Program include national training of community 
leaders to implement Paralympic sport; clinics and mentor visits at 
military and VA installations; development of local community-based 
programs in targeted markets that have military or VA installations; 
and ``Paralympic Military Sports Camps,'' conducted at our Olympic 
Training Centers in Colorado Springs and Chula Vista, California. These 
Military Sports Camps provide an introduction to Paralympic Sport, and 
also the introduction of Paralympians that serve as mentors to injured 
military personnel and veterans. We would like to invite members of 
this Committee to attend our sport camp scheduled for Oct. 27-November 
2, 2008 at the U.S. Olympic Training Center in Chula Vista, California.
    Despite the success of this and similar programs directed at 
injured and disabled active duty and veteran military personnel, we 
recognize that there is much more that we can and should do. As 
successful as the Paralympic Military and Veterans Program has been, we 
have only scratched the surface and intend to do more. Currently there 
is a significant lack of Paralympic community-based programs throughout 
the United States. We have been most fortunate in developing a very 
positive and productive working relationship with the Department of 
Veterans Affairs. Since then we have collaborated on certain activities 
but have been limited financially and programmatically. We believe that 
this legislative proposal, accompanied by supportive funding, would 
serve as a vehicle for the VA and USOC and our partners like the 
Paralyzed Veterans of America and National Recreation and Parks 
Association which has programs in 6,000 U.S. communities, to cost 
efficiently serve a significantly larger universe of veterans for whom 
Paralympic sport would serve as a valuable rehabilitation activity to 
reintegrate into communities with family members and friends. We would 
envision an expansion of Paralympic Community-Based programs to target 
a larger number of veterans and their families, and create similar 
programs at community facilities of some of our Paralympic partners 
such as the Lakeshore Foundation in Birmingham, Alabama, and in the 
City of Colorado Springs, Colorado, the home of Fort Carson, where a 
Paralympic Community-based program does not exist today. These programs 
would be community extensions of VA programs that are identified in 
collaboration with our partners at the Department of Veterans Affairs.
    This legislation, and the interest of this Subcommittee that is 
giving this proposal a hearing, is testimony to the need of veterans 
for activities and programs that enable them to return to a full and 
active life. The United States Olympic Committee, through its 
Paralympic Division, wants to be an active participant in serving a 
most deserving segment of our population. We have learned that these 
various Paralympic sport programs, whether they be the USOC's, the 
Department of Veterans Affairs', or those of Paralympic organizations, 
make a positive difference in the lives of those who are being served. 
We are confident that the expertise that we have developed in 
Paralympic programs, and in collaboration with numerous agencies like 
DSUSA, PVA, DAV, and the American Legion, can and will have a 
significant impact on veterans that are newly disabled to re-enter 
their communities as active members.
    Thank you for your consideration of this important piece of 
legislation and for your ongoing concern for and support of our 
Nation's veterans.

                                 <F-dash>
                 Prepared Statement of Bobby Franklin,
        Executive Vice President, CTIA--The Wireless Association

    Madame Chairwoman and Members of the Subcommittee, thank you for 
the opportunity to appear today to testify on H.R. 3786, the 
Servicemembers Telecom Relief Act.
    My name is Bobby Franklin, and I serve as the Executive Vice 
President for CTIA--``The Wireless Association (``CTIA''). The 
Association I represent is proud to count among its members wireless 
carriers, equipment providers, and applications developers. CTIA's 
carrier members collectively serve 95 percent of America's 
approximately 260 million wireless consumers. Our members provide 
consumers with a wide array of services, equipment, and applications 
that permit Americans to stay connected to their families, friends, and 
businesses no matter where they go.
    CTIA's carrier members, as a matter of their respective corporate 
policies, permit members of the U.S. armed forces facing deployment to 
terminate contract-based service without penalty. Additionally, many 
carriers (including the six largest, representing nearly 93 percent of 
``post-paid'' consumers) have policies regarding contract suspension 
which offer a servicemember the ability to stop service and reserve his 
or her existing telephone number for a set period of time. Our members 
take these obligations seriously, and they train their customer service 
representatives to implement these policies with care and consistency.
    Notwithstanding these efforts, unverified reports have circulated 
here and in many state capitals suggesting that wireless carriers have 
not released from contracts servicemen and servicewomen who are serving 
in military units posted overseas or in locations within the U.S. where 
they cannot use their wireless phones. These reports have generated a 
variety of legislative proposals both in Congress and in state 
legislatures. While CTIA has determined that these unverified reports 
are contrary to the policies of our member companies, and while we 
generally oppose Federal mandates of any sort, we want to put an end to 
these suggestions. For that reason, CTIA's Board of Directors has 
authorized us to support Federal legislation that would amend the 
Servicemembers Civil Relief Act to address these well-intentioned but 
unjustified concerns at both the Federal and state level.
    While we support enactment of legislation to provide a template for 
when and how contracts may be terminated when a servicemember receives 
deployment orders, CTIA has several suggestions for how to improve H.R. 
3786. These suggestions are consistent with the recommendations we 
offered the Subcommittee when it held a hearing in April on H.R. 3298, 
Representative Patrick Murphy's 21st Century Servicemembers Protection 
Act. CTIA's suggestions fall into three categories.
    First, the descriptions of the covered services in the ``Covered 
Contract'' portions of the bill should be amended to conform to the 
definitions used for these services in the Communications Act. This 
will eliminate any potential for confusion regarding what services are 
intended to be covered by the regime imposed by the legislation.
    Second, we propose a clarification of the bill's provisions on 
``Arrearages and Other Obligations and Liabilities'' to better reflect 
the way that wireless service is purchased. The vast majority of the 
more than 260 million wireless subscribers in the United States 
purchase service on a ``post-paid'' (as opposed to ``pre-paid'') basis, 
and nearly all ``post-paid'' consumers subscribe to flat-rate 
``bucket'' plans that allow them to use a fixed number of minutes per 
billing cycle for a flat fee. These flat fee plans have been an 
overwhelming consumer and competitive success and allow consumers a 
broad choice of plans to suit their widely varying calling needs. These 
plans do not make any distinction regarding whether the consumer uses 
all of the covered minutes on the first day or last day of the billing 
cycle, or whether the consumer distributes the minutes equally over all 
days covered in a particular billing cycle, and carriers employing this 
business model do not pro-rate a flat fee if a consumer deactivates 
service in the middle of a billing cycle. Accommodating a pro-rating 
requirement would require an industrywide expenditure of millions of 
dollars for billing system modification and customer care retraining. 
Because of the magnitude of the compliance costs associated with this 
type of pro-rating, and the relatively small number of service 
termination requests, CTIA recommends modifying the legislation to 
better accommodate existing industry practices.
    Third, while CTIA's carrier members have individual corporate 
policies that provide for contract termination without penalty when a 
servicemember provides appropriate deployment orders, and while our 
carriers train their customer service representatives to follow these 
policies, errors can happen. In the event of such a mistake, the limit 
of any customer harm is the imposition of an early termination fee, 
which generally is less than $200 (and increasingly is being pro-rated 
so as to decline across the term of the contract). Given this, the 
penalty provisions in the bill should be clarified and narrowed to cap 
fines at no more than $10,000. Additionally, CTIA asks that any 
legislative history accompanying the bill clarify that fines at that 
level should only be levied in cases where there is knowing and 
repeated violation of the law.
    The wireless industry recognizes the dedication of members of the 
U.S. armed forces and is pleased to work toward enactment of 
appropriate legislation to benefit servicemen and servicewomen facing 
deployment. CTIA and its members look forward to working with the 
Subcommittee and sponsors of both H.R. 3786 and H.R. 3298 to ensure 
that this issue is addressed during the remaining days of the 110th 
Congress.
    Thank you again for the opportunity to appear today, and I would be 
pleased to answer any questions you may have.

                                 <F-dash>
                   Prepared Statement of Kerry Baker,
  Associate National Legislative Director, Disabled American Veterans

    Mr. Chairman and Members of the Subcommittee:

    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address 
various bills before the Subcommittee today. In accordance with our 
congressional charter, the DAV's mission is to ``advance the interests, 
and work for the betterment, of all wounded, injured, and disabled 
American veterans.'' We are therefore pleased to support various 
measures insofar as they fall within that scope.

                               H.R. 2721

    Congressman Cardoza introduced H.R. 2721 in June 2007. This bill 
would amend title 10, United States Code, to require the Secretary of 
Veterans Affairs (Secretary) to develop, and the Secretary of Defense 
to distribute to members of the Armed Forces upon their discharge or 
release from active duty, information in a compact disc read-only 
memory format that lists and explains the health, education, and other 
benefits for which veterans are eligible under the laws administered by 
the Secretary. The DAV does not have a resolution on this issue; 
however, this legislation would improve outreach services and is 
therefore deserving of DAV's support.
    The DAV believes the information contained on such a disc should be 
all-inclusive in regards to both the Department of Veterans Affairs 
benefits and military benefits. Further, considering the lack of 
effective outreach in relation to older groups of veterans, Congress 
should consider whether this type of information should be disseminated 
to older groups of veterans in addition to discharging servicemembers.
    The DAV presented testimony to the House Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs on May 22, 
2008, regarding the issue of outreach. In that hearing, the DAV 
outlined serious flaws in VA's outreach efforts in relation to older 
groups of veterans. Although, this initiative could not correct such 
flaws, this legislation could easily serve as a vessel to improve those 
outreach flaws in a cost-effective manner.

                               H.R. 3786

    The Servicemembers Telecom Contract Relief Act, H.R. 3786, 
introduced by Congresswoman Zoe Lofgren in October 2007, would amend 
the Servicemembers Civil Relief Act to allow individuals called to 
military service to terminate telecommunications contracts entered into 
before the individual receives notice of a permanent change of station 
or deployment orders. The DAV has no resolution on this issue. 
Additionally, this legislation is outside the scope of DAV's mission. 
We nonetheless have no opposition to its favorable consideration.

                               H.R. 4255

    The United States Olympic Committee Paralympic Program Act of 2007, 
H.R. 4255, introduced by Chairman Filner in December 2007, would amend 
title 38, United States Code, to authorize the Secretary to provide 
assistance to the Paralympic Program of the United States Olympic 
Committee. The DAV has concerns regarding this bill.
    Since 1991, the DAV and the VA have co-hosted the National Disabled 
Veterans Winter Sports Clinic in Snowmass Village, Colorado. Known as 
the ``Miracles on a Mountainside,'' the Winter Sports Clinic is the 
world leader in promoting rehabilitation. The sole purpose of this 
program is to promote rehabilitation by instructing severely disabled 
veterans in adaptive Alpine and Nordic skiing, and to provide an 
introduction to other adaptive activities and sports.
    The Winter Sports Clinic provides profoundly disabled veterans 
opportunities for self-development and challenge. Participants have an 
opportunity to develop winter sports skills and take part in a variety 
of adaptive workshops. These activities include: Adaptive skiing in 
sit-skis, mono-skis, and bi-skis; instruction in adaptive Alpine and 
Nordic skiing for stand-up skiers; alternate activities include scuba 
diving, rock climbing, wheelchair self-defense, sled hockey, horseback 
riding, target shooting, snowmobiling, and various additional programs, 
seminars and activities.
    This event evolved from the pioneering efforts of the VA in 
rehabilitation and adaptive sports. Mr. Sandy Trombetta, founder and 
director of the Winter Sports Clinic, began bringing VA patients to a 
nearby mountain resort to participate in disabled ski programs in the 
early 1980s. As a recreation therapist at the VA Medical Center in 
Grand Junction, Colorado, he recognized the physical and mental healing 
that skiing and other winter sports can provide to veterans with 
disabilities. Just a few years after the first Winter Sports Clinic 
held in 1987 with 20 staff members and about 90 veterans, it became 
apparent more support was needed due to the therapeutic benefits and 
popularity of the Clinic. The DAV answered that call and has become a 
co-sponsor of the event since 1991.
    Last year, 391 veterans participated in the event, which is further 
broken down as follows: 133 new veterans; 30 new OIF veterans; 49 
female veterans; 44 states represented; and 88 VA medical facilities 
represented. The youngest participant was 20 years old and the oldest 
was 85. The breakdown by periods of war was as follows: 6 World War II 
veterans; 13 Korean war veterans; 96 Vietnam War veterans; 42 Gulf War 
veterans; 51 Operation Iraqi Freedom veterans; and 18 Operation 
Enduring Freedom veterans.
    It should be noted that the Winter Sports Clinic hosted by DAV and 
VA is purely for rehabilitative purposes, and is in no way competitive 
in nature. As written, this bill has the potential to change that, 
something that both DAV and VA opposes. Many disabled veterans that 
participate in the winter sports clinic have never before attempted 
such sports activities. Bringing a competitive atmosphere into that 
clinic we believe would do more harm than good.
    Section 3, paragraph (c) of the bill states, amongst other things, 
that a program under that section includes a program that ``promotes . 
. . competition.'' The activities described in that same section are, 
among others, instruction and ``competition in paralympic sports.''
    This bill is obviously well-intended and therefore the DAV does not 
wish to stand in its way. However, we also cannot allow unintended 
consequences to occur that may jeopardize the two decades of success in 
helping to rehabilitate severely disabled veterans that the winter 
sports clinic has achieved.
    Therefore, rather than opposing this legislation, we ask that it be 
amended to exclude ``competitive'' sports from being injected into the 
DAV and VA's Winter Sports Clinic in Snowmass Village, Colorado.

                               H.R. 6070

    The Military Spouses Residency Relief Act, H.R. 6070, introduced by 
Congressman Carter in May 2008, would amend the Servicemembers Civil 
Relief Act to guarantee the residency of spouses of military personnel. 
The DAV has no resolution on this issue. Additionally, this legislation 
is outside the scope of DAV's mission statement. We nonetheless have no 
opposition to its favorable consideration.

                               H.R. 6221

    The Veteran-Owned Small Business Protection and Clarification Act 
of 2008, H.R. 6221, introduced by Congressman Boozman in June 2008, 
would amend title 38, United States Code, to require the Secretary to 
include in each contract in which he enters for the acquisition of 
goods and services a provision that requires the contractee to comply 
with the contracting goals and preferences for small business concerns 
owned or controlled by veterans. Essentially, this legislation would 
require compliance with title 38, United States Code, section 8127 when 
the Secretary enters into a contract, memorandum, agreement, or other 
arrangement applicable thereto. The DAV has a standing resolution to 
support legislative measures that assist service-disabled veteran-owned 
small businesses. Although this legislation supports both veteran-owned 
and service-disabled veteran-owned businesses, it is nonetheless in 
compliance with our resolution. The DAV therefore supports this 
legislation.

                               H.R. 6224

    The Pilot College Work Study Programs for Veterans Act of 2008, 
H.R. 6224, introduced by Congresswoman Herseth Sandlin in June 2008, 
would direct the Secretary to conduct a 5-year pilot project to test 
the feasibility and advisability of expanding the scope of certain 
qualifying work-study activities under title 38, United States Code. 
The DAV has no resolution on this issue. Additionally, this legislation 
is outside the scope of DAV's mission. We nonetheless have no 
opposition to its favorable consideration.

                               H.R. 6225

    The Injunctive Relief for Veterans Act of 2008, H.R. 6225, 
introduced by Congresswoman Herseth Sandlin in June 2008, would amend 
title 38, United States Code, relating to equitable relief with respect 
to a State or private employer. By changing title 38, United States 
Code, section 4323(e), from, ``[t]he court `may use' its full equity 
powers . . .'' to, ``[t]he court `shall use' its full equity powers . . 
.,'' applicable courts will no longer be able to use discretion in 
determining whether to use their power to vindicate the rights of those 
individuals entitled to the enforcement of such rights with respect to 
state and private employers.
    This legislation could have direct effect on service-connected 
disabled veterans because many obtain employment due to their service-
connected disabilities. Those same individuals have enforceable rights 
of employment or reemployment. When those rights are violated, the 
victims of such violations should not be subject to the whims of 
discretion that some courts may choose to abuse. The DAV therefore 
supports this legislation.

                               H.R. 6272

    The SMOCTA Reauthorization Act of 2008, H.R. 6272, introduced by 
Congressman Welch in June 2008, would authorize discretionary 
appropriations to carry out the Service Members Occupational Conversion 
and Training Act 1992. In addition to the amounts authorized under 4495 
of the Service Members Occupational Conversion and Training Act 1992, 
this bill would authorize $60 million per fiscal year for years 2009 
through 2018.
    Under this law, title 10, United States Code, section 1143, the 
Secretary of Defense is required to carry out a program to assist 
eligible persons in obtaining employment through participation in 
programs of significant training for employment in stable and permanent 
positions. Those entitled to this program are, among others, members 
separated involuntarily and who have a service-connected disability 
rated at least 30 percent by VA.
    This bill has obvious beneficial effects regarding employment 
opportunities for service-connected disabled veterans. The DAV 
therefore supports this bill.
    Mr. Chairman, this concludes my testimony on behalf of DAV. We hope 
you will consider our recommendations.

                                 <F-dash>
              Prepared Statement of Joseph C. Sharpe, Jr.,
     Deputy Director, National Economic Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:

    Thank you for this opportunity to present The American Legion's 
views on the legislation being considered today. The American Legion 
commends the Committee for holding a hearing to discuss these important 
issues.

H.R. 4255, United States Olympic Committee Paralympic Program Act of 
        2007
    This bill seeks to amend title 38, United States Code, to authorize 
the Secretary of Veterans Affairs to provide assistance to the 
Paralympic Program of the United States Olympic Committee.
    The purpose of this bill is to provide support to the United States 
Olympic Committee (USOC) for the Paralympic Program; to increase the 
participation of physically disabled members of the Armed Forces and 
veterans with service-connected disabilities, through regular 
participation in physical activity and sports; to promote lifelong 
health of members of the Armed Forces and veterans with service-
connected disabilities through regular participation in physical 
activity and sports; and to provide training to physically disabled 
members of the Armed Forces and veterans in their communities.
    The U.S. Olympic Committee Paralympic Division was formed in 2001 
to increase support for Paralympic sport in the United States. The USOC 
Paralympic Division coordinates the preparation and selection of 
athletes to U.S. Paralympic Teams, for both summer and winter games. 
The U.S. Paralympic Military Program provides post-rehabilitative 
support and mentoring to American servicemen and women who have 
sustained physical injuries. Veterans are introduced to adaptive sport 
techniques and opportunities through clinics and camps, and are also 
connected with on-going Paralympic sports programs in their hometowns. 
The Veterans Paralympic Performance Program (VP3) supports Paralympic-
eligible military veterans in their efforts to represent the USA at 
upcoming Paralympic Games.
    Through its Paralympic Military Program, the USOC looks to channel 
America's returning wounded servicemembers into adaptive sports 
programs. USOC is partnering with the Office of the Secretary of 
Defense and the National Recreation and Park Association to promote 
adaptive sports to wounded servicemembers through the DoD's Heroes to 
Hometowns program. The American Legion supports such programs of the 
United States Olympic Committee that promote Americanism, and 
facilitate the rehabilitation and reintegration of our disabled 
veterans and servicemembers. This funded program will extend more 
opportunities for disabled veterans, who in turn will provide them the 
opportunity to achieve and maintain an improved quality of life, and 
once again experience the pride of being a United States citizen 
representing their community and nation. In turn, The American Legion 
also supports the United States Olympic Committee Paralympic Program 
Act of 2007.
    H.R. 2721, To amend title 10, United States Code, to require the 
Secretary of Veterans Affairs to develop, and the Secretary of Defense 
to distribute to members of the armed forces upon their discharge or 
release from active duty, information in a compact disk read-only 
memory format that lists and explains the health, education, and other 
benefits for which veterans are eligible under the laws administered by 
the Secretary of Veterans Affairs.
    Since 1919, The American Legion has been advocating for returning 
servicemembers and providing them with assistance in understanding and 
accessing their benefits. The American Legion supports the distribution 
of benefit information on compact disk. Additionally, we offer a few 
suggestions:

    1.  Any comprehensive benefits information package should include a 
comprehensive reference guide of available veteran service 
organizations (VSOs) with a detailed description of what services they 
offer transitioning servicemembers.
    2.  Digital information should complement, rather than replace, a 
paper manual or guide to veterans' benefits.
    3.  Any comprehensive guide should also include Department of 
Defense (DoD) assistance information.
    4.  A system to update information must be in place to ensure the 
accuracy of the information being distributed.
    5.  The information should be available to download free of charge 
from Department of Veterans Affairs and DoD websites.
H.R. 6070, Military Spouses Residency Relief Act
    This legislation seeks to amend the Servicemembers Civil Relief Act 
to guarantee the residency of spouses of military personnel.
    The American Legion supports this legislation as it will help to 
ensure that the spouses of military personnel are indeed able to 
effectively participate in the democratic process.
    The American Legion also recommends:

    1.  That appropriate laws and guidelines be developed at Federal, 
state and local levels with the intent that all military absentee 
voters and their families will have their votes counted in every 
applicable election.
    2.  That the sending and receiving of blank and completed military 
absentee ballots be accomplished electronically as much as possible.
H.R. 6272, The SMOCTA Reauthorization Act of 2008
    This proposed legislation would authorize discretionary 
appropriations to carry out the Service Members Occupational Conversion 
and Training Act 1992 (SMOCTA). SMOCTA was developed as a transitional 
tool designed to provide job training and employment to eligible 
veterans discharged after August 1, 1990. When created, SMOCTA was the 
only Federal job training program available strictly for veterans and 
the only Federal job training program specifically designed for use by 
state veterans' employment personnel to assist veterans with barriers 
to employment. Veterans eligible for assistance under SMOCTA were those 
with a primary or secondary military occupational specialty that DoD 
determined was not readily transferable to the civilian workforce or 
those veterans with a service-connected disability rating of 30 percent 
or higher. SMOCTA is a unique job-training program because it 
successfully returned veterans to the civilian workforce.
    The American Legion strongly endorses this bill along with the 
proposed funding request.

H.R. 6224, The Pilot College Work Study Programs for Veterans Act of 
        2008
    This legislation would direct the Secretary of Veterans Affairs to 
conduct a five-year pilot project to test the feasibility and 
advisability of expanding the scope of certain qualifying work-study 
activities under title 38, United States Code. The bill refers to work 
study positions on college campuses to include positions as ``tutors, 
research, teaching, and lab assistants.'' The American Legion 
recommends that students should also be allowed and encouraged to 
participate as a VA Work Study student at veteran offices within the 
Small Business Administration (SBA), the Department of Labor (DoL), 
Department of Defense, (DoD) and Department of State. The College Work 
Study Program could also include veteran service organizations (VSOs) 
and military family support offices and other offices that focus on the 
reintegration of returning Reserve and Guard members as well.
    The American Legion endorses this bill to include the $10 million 
funding authorization.

H.R. 6221, Veteran-Owned Small Business Protection and Clarification 
        Act of 2008
    H.R. 6221 seeks to amend Title 38, United States Code, to require 
the VA Secretary to include in each contract the Secretary enters for 
the acquisition of goods and services a provision that requires the 
contractee to comply with the contracting goals and preferences for 
small business concerns owned or controlled by veterans, and for other 
purposes.
    The American Legion has urged Congress to require reasonable set-
asides of Federal procurements and contracts for businesses owned and 
operated by veterans. The American Legion supported legislation in the 
past that sought to add service-connected disabled veterans to the list 
of specified small business categories receiving 3 percent set-asides. 
Despite enactment of Public Law 106-50, the ``Veteran Entrepreneurship 
and Small Business Development Act of 1999,'' agency compliance has 
been minimal; however, VA has sought to raise their veteran procurement 
goals to 9 percent. Therefore, The American Legion supports H.R. 6221 
which is intended to assist VA in reaching their new goals by ensuring 
that every contract up for bid be considered for a service disabled 
owned company.

H.R. 6225, to amend title 38, United States Code, relating to equitable 
        relief with respect to a State or private employer
    The Uniformed Services Employment and Reemployment Rights Act 
(USERRA) protects civilian job rights and benefits of veterans and 
members of the armed forces, including National Guard and Reserve 
members. USERRA also prohibits employer discrimination due to military 
obligations and provides reemployment rights to returning 
servicemembers.
    Since September 11, 2001, nearly 600,000 National Guard and Reserve 
members have been activated for military duty. During this same period, 
the Veterans Employment and Training Service of the Department of Labor 
has provided USERRA assistance to well over 400,000 employers and 
servicemembers. Therefore, The American Legion supports this 
legislation that would greatly increase the authority of the courts to 
use its full equity powers to ``administer temporary or permanent 
injunctions, temporary restraining orders, and contempt orders, to 
vindicate fully the rights or benefits of persons under this chapter, 
4323 Title 38.''
    Again, thank you Mr. Chairman for allowing The American Legion this 
opportunity to present its views on the aforementioned issues. We look 
forward to working with the Committee to help increase the earned 
benefits for our Nation's veterans.

                                 <F-dash>
                  Prepared Statement of Richard Daley,
     Associate Legislation Director, Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify today on the various bills that have 
been introduced. We appreciate the efforts of this Subcommittee to 
address the different needs of the men and women who are currently 
serving in the War on Terror and those men and women who served during 
past conflicts.

            H.R. 2721, BENEFITS INFORMATION ON COMPACT DISK
    PVA supports H.R. 2721, a bill that will require the Department of 
Veterans Affairs (VA) to develop and the Department of Defense to 
distribute to all servicemembers upon discharge a compact disk (CD) 
that explains all healthcare, compensation, education, and other 
benefits and services available from the VA. This initiative would seem 
to support the idea of greater outreach that PVA and all other 
veterans' service organizations have been advocating for the VA to 
conduct. Furthermore, it reinforces the fact that this newest 
generation of veterans is very much in tune with the information age. 
The only caution we would offer is that this initiative still may not 
benefit a great many veterans who may live in highly rural areas, or 
may have limited or no access to computer and Internet services.

     H.R. 3786, THE ``SERVICEMEMBERS TELECOM CONTRACT RELIEF ACT''
    PVA fully supports the provisions of this proposed legislation. 
Just as we testified in 2003, when motor vehicle leases were added to 
the Servicemembers Civil Relief Act, it makes no sense to require a 
servicemember to maintain a cellular phone, cable or satellite 
television, or Internet contract when they will have no opportunity to 
use it while on active duty and deployed. The inability of the 
servicemember to take advantage of the service should preclude his or 
her requirement to pay for that service.

  H.R. 4255, THE ``UNITED STATES OLYMPIC COMMITTEE PARALYMPIC PROGRAM 
                                 ACT''
    While we generally supported this legislation in the past, we now 
have serious concerns about the long-term impact that this association 
between the VA and the USOC could have on the programs that the 
veterans service organizations have developed with VA that serve a 
similar purpose. To this point, the USOC has not been completely open 
and forthright with any of the veterans' service organizations who have 
longstanding partnerships with the VA to conduct the National Veterans 
Wheelchair Games, the Winter Sports Clinic, and similar sports and 
recreation programs. We believe that there needs to be assurances that 
VA continues to have independence administering sports and recreational 
activities for disabled veterans, assurances that the USOC has yet to 
provide. We also believe separate funding should be provided outside of 
the direct healthcare dollars appropriated to the VA. Ultimately, the 
concepts outlined in this legislation are what need to be reinforced--
that sports and recreation programs are about improved health and 
rehabilitation, not elite competition.
    PVA became aware of the VA-United States Olympic Committee (USOC) 
Military Paralympic Program by its association with VA, as co-presenter 
of the National Veterans Wheelchair Games. The NVWG, established in 
1981 by VA, is a week-long, multi-sport event designed to introduce the 
newly injured veteran to a variety of wheelchair sports and recreation 
activities in hopes that this participation will lead to a healthy 
lifestyle. PVA's involvement began in 1985 due to its unique expertise 
in sports and recreation programs for our members and other severely 
disabled veterans. We have contributed countless financial and 
personnel resources throughout the years to these types of programs. 
Moreover, approximately 80 percent of the 550 total average 
participants at the Games each year are PVA members. As a result, PVA 
has a vested interest and commitment to the Games and we are seriously 
concerned with this new relationship that the VA is developing with the 
USOC.

        H.R. 6070, THE ``MILITARY SPOUSES RESIDENCY RELIEF ACT''
    PVA supports the ``Military Spouses Residency Relief Act.'' This 
legislation would amend the Servicemember's Civil Relief Act (SCRA) to 
state that a military spouse who moves out of state because of the 
servicemember's military orders would have the same option to claim one 
state of domicile regardless of where they are stationed.
    This logical correction in the law will ease transition for 
military families from one location to another. Both parties in a 
marriage should be able to file taxes together paying to one state, own 
property together claiming the same residence, vote at the same 
location, and have their driver's licenses from the same state.

     H.R. 6221, THE ``VETERAN-OWNED SMALL BUSINESS PROTECTION AND 
                          CLARIFICATION ACT''
    PVA supports H.R. 6221, the ``Veteran-Owned Small Business 
Protection and Clarification Act.'' Almost universally, Federal 
agencies are not living up to standards established for initiating 
contracts with veteran-owned businesses and disabled veteran-owned 
small businesses. Public Law 106-50 originally outlined the 
responsibility of Federal agencies to provide at least 3 percent of 
contracts with veteran-owned small businesses and 3 percent of 
contracts with disabled veteran-owned small businesses. Due to the 
intransigence of Federal procurement officers, new legislation was 
passed in 2003--P.L. 108-183--that made 3 percent a mandatory Federal 
procurement policy.
    This bill will clarify the process of placing contracts for the VA. 
If the VA places a contract with any government entity for goods or 
services and that entity contracts for those goods or services, then 
the requirement for using a veteran-owned business will apply. This 
will help veteran-owned businesses receive their share of Federal 
contracts from VA, as Congress has intended all along.

 H.R. 6224, THE ``PILOT COLLEGE WORK STUDY PROGRAMS FOR VETERANS ACT''
    As we stated in testimony on similar legislation earlier this year, 
PVA supports the provisions of H.R. 6224, the ``Pilot College Work 
Study Programs for Veterans Act.'' This legislation would create a 5-
year pilot program for on-campus work-study positions that may include 
work in academic departments serving as tutors, research assistants, 
teaching assistants, and lab assistants or work in student services 
including positions in career centers and financial aid, campus 
orientation, cashiers, admissions, records, and registration offices. 
We believe this work-study program can be very beneficial for many 
students.

         H.R. 6225, THE ``INJUNCTIVE RELIEF FOR VETERANS ACT''
    PVA fully supports the language change to the section of Title 38 
that governs enforcement of employment of reemployment rights with 
respect to state or private employers. The War on Terror has provided 
unexpected hardship for many National Guardsmen and Reservists seeking 
employment or a return to a previous job. This simple language change 
from ``may'' to ``shall'' will give the servicemember a greater hope 
that a meaningful decision will be made when it comes to his or her 
employment or reemployment following military service. PVA appreciates 
the efforts of this Subcommittee, and Ms. Herseth Sandlin in 
particular, to ensure that servicemembers are not punished by a state 
or private employer with loss of a job when they are called to serve.

                   THE ``SMOCTA REAUTHORIZATION ACT''
    PVA supports the ``SMOCTA Reauthorization Act.'' We recommended the 
reauthorization of the Service Members Occupational Conversion and 
Training Act (SMOCTA) program, or a program similar to that at a 
hearing before this Subcommittee last October. SMOCTA was established 
during the downsizing of the military for veterans discharged after 
August 1, 1990, to help those veterans that had limited transferable 
job skills. This program was a cooperative venture funded by the 
Department of Defense and administered by the VA and the Department of 
Labor. This was considered one of the better programs to serve 
transitioning military personnel.
    This program provided assistance in the form of reimbursements to 
employers who provided training for veterans that led to permanent 
employment. The program also included funds for assessments, 
development of training plans, and supportive services for the trainee. 
The Disabled Veterans Outreach Program (DVOP) specialists and Local 
Veterans Employment Representatives (LVER) staff developed the 
employment and training plans. Veterans eligible for assistance were 
those with military occupations that were not transferable; those that 
were unemployed for a long period of time; and those with a 30 percent 
or greater service-connected disability.
    At this time we are facing a similar situation with a large number 
of young men and women leaving the military, many of whom will not have 
transferable job skills. A similar program would help these men and 
women transitioning from the military today, and those Reserve and 
Guard members reentering the workforce.
    Chairwoman Herseth Sandlin and Ranking Member Boozman, we 
appreciate the emphasis you have placed on providing for the needs of 
the men and women who have served and continue to serve in harm's way. 
We look forward to working with you to ensure that the best benefits 
and services are made available to them.
    Thank you again for the opportunity to testify. I would be happy to 
answer any questions that you might have.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America

    Good afternoon, Madam Chairwoman. On behalf of VVA National 
President John Rowan and all of our officers and members we thank you 
for the opportunity for Vietnam Veterans of America (VVA) to appear 
here today to share our views on several items of pending legislation. 
I will briefly summarize the most important points of our statement.
H.R. 2721, Directs: (1) the Secretary of Veterans Affairs (Secretary) 
        to develop and maintain, in a compact disk (CD) read-only 
        memory format, information that lists and explains the health, 
        education, and other benefits for which veterans are eligible 
        through the Department of Veterans Affairs (VA); (2) that a 
        copy of such CD be included as part of the pre-separation 
        counseling provided to each member of the Armed Forces being 
        discharged or released from duty; and (3) the Secretary, 
        Secretary of Defense, and head of any other relevant government 
        agency to each maintain an Internet website containing an 
        explanation of the benefits administered by that Secretary or 
        agency head to which veterans are entitled, and how veterans 
        can secure those benefits.
    The concept behind this bill is sound in that depriving veterans of 
the knowledge and existence of services, entitlements, and benefits is 
tantamount to denying the benefits. Several years ago, VVA joined with 
then Congressman Ted Strickland in suing VA to force them to start 
doing outreach to veterans again. This suit was precipitated by the 
infamous Laura Miller memo in the Veterans Health Administration (VHA) 
ordering the end to marketing and outreach events. In many cases this 
memo even led to the denial of VA participation in ``Stand Down'' 
events for homeless veterans, as well as the severe curtailing of any 
efforts to educate veterans as to their earned rights. In the days 
leading up to actual filing, I asked the VISN Directors at a so-called 
Leadership Board for a show of hands as to how many were doing 
significantly less outreach than a year before, and about seven raised 
their hands. I then asked how many were doing somewhat less, and 8 
raised their hands. I asked how many were doing about the same, and 
three raised their hands. Only one felt he was doing more (and it 
turned out later that this person was confused by the question). So, we 
filed suit.
    VVA won that suit. The Federal Court held that VVA had standing to 
sue the VA, that VVA was correct that Title 38 compelled an affirmative 
responsibility on VA to do outreach to inform veterans of the rights, 
benefits, and services they have earned by virtue of military service 
to country, and that VA needed to do more. It was therefore no accident 
that the ``theme'' of the 75th Anniversary of the VA was officially 
stated as ``to inform every veteran in America of their rights and 
benefits.'' (Of course that did not happen.)
    In preparation for this hearing, VVA asked the Secretary's office 
what was the aggregate budget for outreach in the current Fiscal Year, 
and the two previous Fiscal Years, and how it was apportioned. The 
answer was that they did not have such a figure, as each and every 
little program and local facility had their own funds for marketing, 
education, and outreach as part of their budget allocation, but that it 
was not tracked centrally, and apparently it is not centrally 
coordinated or directed either. This is a case of how to ensure that 
the whole is far less than the sum of the parts.
    The idea of giving servicemembers the information in an electronic 
format at separation or demobilization is a good one, but it must be 
highly portable, and not necessarily a CD-ROM. (For instance, a 
``memory stick'' containing the information that is also a key chain 
might work better, and be more likely not to be lost or tossed.)
    A supplement to this would be a card that contains all of the key 
Web sites which is the size and shape of a credit card, and so can be 
put in the separating servicemember's wallet and kept until they feel 
they have a need to use it would be a very inexpensive supplement to 
this electronic device.
    VVA favors this proposal, with a bit of modification, and the 
addition of a reporting mechanism to the Committee.
H.R. 3786, Servicemembers Telecom Contract Relief Act--Allows a person 
        in military service to terminate a telecommunications contract 
        for cellular phone service, cable or satellite television 
        service, or internet service at any time after: (1) entry into 
        military service; or (2) the date of the station or deployment 
        orders. Requires for termination that: (1) the contract is 
        executed by or on behalf of a person who thereafter and during 
        the term of the contract enters military service (or receives 
        order to enter military service) under an order specifying a 
        period of not less than 90 days (or who enters military service 
        under an order specifying a period of 90 days or less and who, 
        without a break in service, receives orders extending the 
        period of military service to a period of not less than 90 
        days); or (2) the person enters into the contract while in 
        military service and thereafter receives military orders for a 
        permanent change of station outside of the continental United 
        States, or to deploy with a military unit for a period of not 
        less than 90 days, to a location that does not support 
        continuation of the service under the contract.
    This is an important update of protections and relief to our 
servicemembers, and VVA favors passage. Cell phone contracts can be 
very difficult to break, and are the most common communication device 
of choice, along with e-mail, of our young servicemembers.

H.R. 6070, Military Spouses Residency Relief Act, amends the 
        Servicemembers Civil Relief Act to guarantee the residency of 
        spouses of military personnel.
    As this is apparently a problem for some spouses, VVA generally 
favors the concept of this proposed legislation. Anything and 
everything that can be done to make the life and lot of military 
spouses a bit easier is something that VVA strongly favors, and the 
spouses (and the children and parents) also sacrifice much for our 
country.

H.R. 4255, United States Olympic Committee Paralympics Program Act of 
        2007, Authorizes the Secretary of Veterans Affairs to make a 
        grant to the U.S. Olympic Committee (USOC) to plan, develop, 
        manage, and implement the Paralympics Program for veterans and 
        members of the Armed Forces. Directs the USOC to use a grant to 
        recruit, support, encourage, schedule, facilitate, supervise, 
        and implement paralympic instruction and competition 
        activities, training and technical assistance, and coordination 
        and program development activities for veterans and members of 
        the Armed Forces with physical disabilities. Sets forth 
        outreach, coordination, application, and memorandum of 
        understanding requirements.
    Regaining a sense of physical prowess has been proven to often 
carryover to all areas of one's life for significantly disabled 
individuals, so investing in this sort of programs can increase the 
success of other programmatic programs for disabled veterans. Therefore 
VVA generally supports this bill, but as always, we believe that even 
in this case there must be built in accountability mechanisms to ensure 
that the intent is carried out effectively and efficiently, and that 
proper fiscal accounting is ensured.

H.R. 6221, Veteran-Owned Small Business Protection and Clarification 
        Act of 2008, amends title 38, United States Code, requiring the 
        Secretary of Veterans Affairs to include in each contract the 
        Secretary enters for the acquisition of goods and services a 
        provision that requires the contractee to comply with the 
        contracting minimums and preferences for small business 
        concerns owned or controlled by veterans, and for other 
        purposes.
    Vietnam Veterans of America (VVA) strongly favors this bill. We 
also urge that it be made clear to VA, and therefore to very large 
contractors like McKesson (which currently has a $3 Billion plus 
contract with VA with no or virtually no veteran or service disabled 
veteran owned subcontractors) that failure to comply will result in 
prohibiting the contractor from bidding on future contracts. Heretofore 
there has been little or no effort to monitor or ensure compliance with 
the 3 percent minimum sub-contracting requirement at VA (or elsewhere, 
for that matter).
    Further, it needs to be made explicit in Title 38 and elsewhere in 
Federal law that information on sub-contracting is public information, 
and cannot under any circumstances be considered to be private, 
privileged, or proprietary information of prime contractors. This ruse 
has been used in the past to deny information on subcontracting by 
major Federal contractors to the service disabled veterans business 
owner community. After all, this is the public's money, and the public 
has a right to know how, and with whom, it is spent.

H.R. 6224, Pilot College Work Study Programs for Veterans Act of 2008, 
        directs the Secretary of Veterans Affairs to conduct a 5-year 
        pilot project to test the feasibility and advisability of 
        expanding the scope of certain qualifying work-study activities 
        under title 38, United States Code.
    VVA favors this so-called pilot, as long as there is no ``match'' 
that has to be provided by the sponsoring academic or research entity, 
which would then allow the veteran to market themselves to the type of 
entity that will give them the best experience toward eventually 
reaching their career goals irrespective of ready ``match'' funds, 
usually one that is complementary to their course of study. The 
requirement under Federal Work Study Programs for an up to 25 percent 
match often serves as an impediment to the student securing the best 
possible assignment to further their future success.
    Further, VVA can see no reason why this program cannot be taken 
nationwide after the first 2 years of successful operation. Lastly, 
there needs to be strict reporting guidelines so that the Congress can 
successfully fulfill your all-important oversight function 
expeditiously.

H.R. 6225, Injunctive Relief for Veterans Act of 2008, amends title 38, 
        United States Code, relating to equitable relief with respect 
        to a State or private employer.
    VVA salutes you, Madam Chairwoman, for moving to strengthen 
protections of employment for mobilized servicemembers. While 
incentives and education of employers has proven to be the best 
strategy for gaining general compliance, the lack real sanction 
measures that will be respected by recalcitrant or unscrupulous 
employers has long been a significant weakness in the law. You are to 
be congratulated for taking action to ``put more teeth'' into 
enforcement of this vital program.
    Having noted that we favor this initiative, VVA also suggests to 
the Committee that there is not enough staff at the Veterans Employment 
& Training Service (VETS) of the United States Department of Labor 
(USDoL) who are adequately trained and supervised to do proper 
investigations regarding re-employment. VVA would hope that the 
Appropriations Committee would add to the number of VETS staff and to 
the VETS training budget enough additional resources to close this gap 
between what needs to be done and what is now happening in many states.
    VVA further suggests that a very small percentage of businesses are 
bearing a disproportionate share of the burden of paying for these wars 
in which we are currently engaged, in that they are the ones who DO 
support their employees who are also Guard and Reserve members when 
they are deployed. These employers pay the cost of lost productivity, 
the cost of hiring and training a temporary employee while the Guard 
member or reservist is on active duty, and in many cases the cost of 
re-training the returning servicemember whose skills have become 
outdated and the cost of helping that person readjust to civilian life 
again.
    Therefore, VVA strongly urges the Congress to consider two options: 
First, to provide tax incentives for those employers who have Guard and 
Reservists on their payroll who are activated for the proportional 
number of months in a given year that their employee was away; and, 
two, to make available training dollars through USDoL to both train the 
temporary replacement worker and the returning servicemember when they 
come back to the job. These two measures together would materially 
strengthen the support for the National Guard and Reserves from the 
employer community, but we believe it would greatly reduce the number 
of problems with re-employment rights, therefore reducing the number of 
complaints dramatically.
    What we are really suggesting is that we look to better educate the 
employers as to what is their responsibility under the USERRA law 
BEFORE there is a problem and everyone gets emotional, but also that 
the employers' perspective and needs should be taken into account. 
Frankly, VVA believes that providing real incentive for voluntary 
compliance will prove to be far more effective than any or all 
enforcement efforts.
    Essentially we are urging that at the same time as you move to 
``strengthen the stick'' to try and ensure better compliance, VVA 
thinks that much more needs to be done to ``sweeten the carrot'' that 
will provide real incentives for private sector employers to comply.

H.R. 6272, SMOCTA Reauthorization Act of 2008, authorizes discretionary 
        appropriations to carry out the Service Members Occupational 
        Conversion and Training Act 1992.
    Although this is the last bill on which we comment in this 
statement, this is one of the most important bills to assist disabled 
and separating veterans that Congress will consider this year. VVA has 
held for thirty years that the nexus or central event in the 
readjustment process is assisting veterans to come to the point where 
each can obtain and sustain meaningful employment at a living wage. 
While a decent job will not solve their PTSD or TBI or blindness or 
other problems stemming directly from their service to country in the 
military, it will go a long way toward ameliorating those problems and 
making them more likely to be overcome.
    In 1982 this Committee created what was then known as the 
``Emergency Veterans Job Training Act'' (EVJTA) as a tool to assist 
Vietnam and disabled veterans to obtain employment. It was created 
largely in response to very high unemployment rates of veterans in the 
recession 1982-83. While there were some significant problems with 
initial implementation (caused mostly by David Stockman and the Office 
of Management & Budget trying to sabotage the program), the program 
created a significant tool that was utilized by Disabled Veteran 
Outreach Program (DVOP) personnel and others to create job positions 
for veterans that would not have otherwise existed. The program was so 
successful that it was renewed several years later. And the term 
``emergency'' was dropped, making it the Veterans Job Training Act 
(VJTA).
    The VJTA was also a very successful program, and was highly valued 
by both employers and by veteran advocates who were able to use it to 
``get their foot through the door'' to speak with employers regarding 
strong candidates whom they were trying to ``market'' to employers. 
Unfortunately, this program was allowed to lapse to the dismay of 
veteran advocates and many in the employment placement community.
    There was enough of a clamor for a VJTA type of placement tool 
during the downsizing of the military following the victory of the 
United States in the Cold War and the dissolution of the Soviet empire 
that the Congress created the Service Members Occupational Conversion & 
Training Act (SMOCTA). Essentially SMOCTA was a re-packaged version of 
the earlier VJTA program. Despite the unfortunate acronym, this program 
was very successful and resulted in many veterans obtaining decent jobs 
that led into successful careers. Once again, after the perceived 
crisis had passed the veterans community and our advocates on this 
distinguished Committee were successful in securing the renewal of the 
authority for the program, but never succeeded in obtaining the 
appropriations necessary to operate this worthy employer incentive 
program.
    Today there is another perceived crisis in regard to the 
difficulties of returning Global War on Terror (GWOT) warriors in 
obtaining decent jobs. This problem is real for many, especially those 
who return disabled, those in combat arms with no immediately 
convertible secondary MOS or prior civilian credentialed skills, and 
those from very rural or other areas where job opportunities are few. 
While VVA strongly favors early enactment of H.R. 6272 and immediate 
full funding of this program, VVA does urge that this not be another 
``flash in the pan'' that will disappear after the perceived immediate 
crisis no longer is in the media headlines. Such a tool is something 
that is needed to assist many veterans to get the type of work that 
will sustain these veterans and their families, and in more cases than 
not turn into viable careers for these individuals.
    I would be remiss if I did not note that the primary service 
delivery mechanism for ensuring widespread usage of this important tool 
is still significantly compromised, if indeed not broken. There simply 
must be significantly greater and much more meaningful accountability 
measures imposed on the state workforce development systems regarding 
the DVOP and the Local Veterans Employment Representative (LVER) grants 
programs, or the entire structure needs to be Federalized and the DVOP/
LVER staff put under direct and immediate control of the USDoL-VETS 
state directors. And then those state directors held accountable for 
overall performance in each state.) We hope that even at this late date 
in the 110th Congress that you and your distinguished colleagues will 
embark on a serious dialog with all stakeholders concerned in order to 
take meaningful action in this regard, this year.
    Vietnam Veterans of America (VVA) thanks you for the opportunity to 
appear here to today to offer our thoughts and views on these vital 
veterans' issues. I will be pleased to answer any questions that the 
Committee may have.

                                 <F-dash>

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                                            CLASSIFICATION
                                                            WOTC
                                                           -----------------------------------------------------
EMPLOYMENT AND TRAINING                                     CORRESPONDENCE
ADMINISTRATION ADVISORY SYSTEM                              SYMBOL
U.S. DEPARTMENT OF LABOR                                    OWI
Washington, D.C. 20210
                                                           -----------------------------------------------------
                                                            DATE
                                                            April 3, 2007
----------------------------------------------------------------------------------------------------------------

    TRAINING AND EMPLOYMENT GUIDANCE LETTER NO. 20-06

    TO:
                  ALL STATE WORKFORCE AGENCIES
                  ALL STATE WORKFORCE LIAISONS

    FROM:
                  EMILY STOVER DeROCCO /s/ Assistant Secretary

    SUBJECT:
                  Reauthorization of the Work Opportunity Tax Credit 
and Other
                Program Changes

    1.  Purpose. To announce the reauthorization of the Work 
Opportunity Tax Credit Program under the Tax Relief and Health Care Act 
of 2006 (P.L. 109-432) and provide procedural guidance to the states 
for processing requests for certification under the amended program.

    2.  References. The Tax Relief and Health Care Act of 2006 (P.L. 
109-432); Working Families Tax Relief Act of 2004 (P.L. 108-311); 
Training and Employment Guidance Letter (TEGL) No. 14-05, dated 
February 9, 2006; Internal Revenue Code (IRC) of 1986, Sections 51 and 
51A, as amended; Employment and Training Administration (ETA) Handbook 
No. 408, Third Edition, November 2002 (the Handbook); and the May 2005 
Addendum to the Handbook.

    3.  Background. Legislative authority for the WOTC program and the 
Welfare-to-Work Tax Credit (WtWTC) expired December 31, 2005. Congress 
has reauthorized and extended the WOTC program through December 31, 
2007. Congress has also modified certain provisions with respect to 
individuals who begin work for an employer after December 31, 2006.

    4.  Authorization. The Tax Relief and Health Care Act of 2006 (P.L. 
109-432) was signed into law on December 20, 2006. Section 105 of the 
Act provides a 2-year extension of the WOTC program through December 
31, 2007, effective retroactively to January 1, 2006.

          In addition, the following statutory changes apply with 
        respect to individuals who begin work for employers on or after 
        January 1, 2007:

                <bullet>  The earnings test for ex-felons is 
                eliminated;
                <bullet>  The maximum age for food stamp recipients is 
                increased;
                <bullet>  The certification request filing deadline is 
                increased; and
                <bullet>  The WtWTC provisions are merged into the WOTC

          Explanation of Specific Statutory Amendments and Provisions. 
        Section 105 of the Act:

                a.  Amends the statutory definitions of two WOTC target 
                groups in IRC Section 51 as follows:

                        1.  Ex-Felons--removes economic eligibility 
                        determination based on family income.
                        2.  Food Stamp Recipients--increases 
                        eligibility age from 18-25 to 18-40.

                b.  Extends the certification request filing date from 
                21 to 28 days after the new hire begins work for the 
                employer.
                c.  Repeals IRC Section 51A by merging the WtWTC into 
                the WOTC and creating a new WOTC target group I, 
                entitled ``Long-term family assistance recipient.'' The 
                new target group retains the statutory definition and 
                the more generous tax credit provisions over a 2-year 
                period of the former WtWTC. With respect to this target 
                group only:

                        <bullet>  First-year WOTC is increased from 35 
                        to 40 percent of qualified first-year wages, 
                        which are capped at $10,000.
                        <bullet>  Second-year WOTC is retained at 50 
                        percent of qualified second-year wages, again 
                        capped at $10,000 for a maximum 2-year credit 
                        of $9,000.
                        <bullet>  Wages taken into consideration are 
                        calculated in the same manner as for the other 
                        WOTC target groups. Therefore, wages no longer 
                        include certain amounts excludable from the 
                        recipient's gross income.
                        <bullet>  The minimum employment or retention 
                        period is calculated in the same manner as for 
                        the WOTC. Therefore, the 180 days of service 
                        formerly required for certified WtWTC employees 
                        no longer applies to this target group under 
                        the consolidated WOTC. Note: For the other 
                        adult target groups (except Summer Youth), 
                        ``the 40-percent rate applies to qualified 
                        first-year wages only if the employee works at 
                        least 400 hours or more. If the employee works 
                        at least 120 hours, but fewer than 400 hours, 
                        the credit is 25 percent of qualified first-
                        year wages capped at $6,000 ($3,000 for Summer 
                        Youth).''

    5.  Program Administration. Under the reauthorizing legislation, 
state workforce agencies' (SW As) certification and program operation 
responsibilities for the consolidated WOTC program remain the same as 
those described in the Handbook and the May 2005 Addendum to the 
Handbook. These include procedures for: (a) determining target group 
eligibility and issuing certifications and denials; (b) establishing 
working partnerships with different participating agencies at the state 
and local levels for resolving technical issues and issuing conditional 
certifications; (c) conducting verification activities; (d) complying 
with quarterly report responsibilities; and (e) records retention.

    6.  IRS Form 8850. IRS Form 8850, Pre-Screening Notice and 
Certification Request for the Work Opportunity Credit, and the 
instructions for Form 8850 have been revised. The February 2007 revised 
form and instructions are available at www.irs.gov.

          SW As are reminded of the guidance provided in Announcement 
        2002-44, ``Electronic Submission of Form 8850,'' contained in 
        the IRS' Internal Revenue Bulletin (IRB) No. 2002-17, published 
        on April 29, 2002. This announcement describes the requirements 
        that must be met should SW As choose to establish systems to 
        accept electronic submission of IRS Form 8850. The text of 
        Announcement 2002-44 is available at http://
        www.uses.doleta.gov/pdf/Appendix IV/Appendix_IV_3_Announcement 
        2002-44.pdf.

    7.  Reporting Authority. Pursuant to the Paperwork Reduction Act, 
the Office of Management and Budget (OMB) has extended the information 
collection requested for the WOTC/WtWTC administrative and streamlined 
reporting form without changes. ETA Form 9058--Report 1 and ETA 
administrative forms 9057, 9059, 9061-9063, and 9065 are approved under 
OMB No. 1205-0371 through August 31, 2009. SW As should continue to use 
the current certification and reporting forms until further notice. A 
package including revised reporting and administrative forms, updates 
to the May 2005, Addendum to the Handbook, a new Fourth Edition of ETA 
Handbook 408, a Fact Sheet ``Employers: 9 ways to Earn Federal Income 
Tax Credits for Your Company,'' and a revised Technical Assistance and 
Compliance Review Guide will be submitted to OMB for clearance. 
Training on WOTC program amendments, provisions, and new reporting and 
administrative forms is being planned and will be provided through 
webinars.

    8.  Action Required. SW A administrators are requested to:

                a.  Provide this information to appropriate program 
                staff, employers and their representatives, 
                participating agencies, and other interested partners. 
                They are to ensure that the SW As and participating 
                agencies administer the WOTC in accordance with the 
                guidance provided in the Handbook; the May 2005 
                Addendum to the Handbook; and the Internal Revenue Code 
                1986, Section 51, as amended.
                b.  Ensure that State WOTC Coordinators receive a copy 
                of the new legislation. Title I, Section 105 of the Tax 
                Relief and Health Care Act of 2006 (P.L. 109-432) is 
                available at http://thomas.1oc.gov/home/thomas2.html.

    9.  Inquiries. Direct all questions to the appropriate Regional 
WOTC Coordinator.

------------------------------------------------------------------------

------------------------------------------------------------------------
RESCISSIONS                              EXPIRATION DATE:
None                                     Continuing
------------------------------------------------------------------------


                                 ______
                                 

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                                            CLASSIFICATION
                                                            WOTC
                                                           -----------------------------------------------------
EMPLOYMENT AND TRAINING                                     CORRESPONDENCE
ADMINISTRATION ADVISORY SYSTEM                              SYMBOL
U.S. DEPARTMENT OF LABOR                                    OWI
Washington, D.C. 20210
                                                           -----------------------------------------------------
                                                            DATE
                                                            September 11, 2007
----------------------------------------------------------------------------------------------------------------

    TRAINING AND EMPLOYMENT GUIDANCE LETTER NO. 5-7

    TO:
                  ALL STATE WORKFORCE AGENCIES
                  ALL STATE WORKFORCE LIAISONS

    FROM:
                  EMILY STOVER DeROCCO /s/ Assistant Secretary

    SUBJECT:
                  Reauthorization of the Work Opportunity Tax Credit 
and Other
                Program Changes

    1.  Purpose. The purpose of this guidance is to announce the 
reauthorization of the Work Opportunity Tax Credit (WOTC) Program under 
the Small Business and Work Opportunity Tax Act of 2007 (P.L. 110-28) 
and provide procedural guidance to the states for processing requests 
for certifications under the consolidated program.

    2.  References. The Small Business and Work Opportunity Tax Act of 
2007 (P.L. 110-28); Tax Relief and Health Care Act of 2006 (P.L. 109-
432); Working Families Tax Relief Act of 2004 (P.L. 108-311); Training 
and Employment Guidance Letter (TEGL) No. 20-06, dated April 7, 2007; 
Internal Revenue Code (IRC) of 1986, section 51, as amended; Employment 
and Training Administration (ETA) Handbook No. 408, Third Edition, 
November 2002 (the Handbook); and the May 2005 Addendum to the 
Handbook.

    3.  Background. On December 20, 2006, the President signed into law 
the Tax Relief and Health Care Act of 2006 (P.L. 109-432). This 
legislation not only extended the WOTC Program (retroactively to 
January 1, 2006) through December 31, 2007, but also merged the 
Welfare-to-Work Tax Credit (WtWTC) into WOTC and repealed permanently 
section 51(A) of the IRC. Congress also amended certain statutory 
definitions with respect to new hires that began to work for an 
employer after December 31, 2006. For additional information, see TEGL 
No. 20-06, dated April 3, 2007.

    4.  Authorization. The Small Business and Work Opportunity Tax Act 
of 2007 (P.L. 110-28) was signed into law on May 25, 2007. Section 8211 
of the Act provides a 44-month extension of the WOTC Program through 
August 31, 2011.

          Explanation of Specific Statutory Amendments and Provisions. 
        Section 8211 of the Act:

                a.  Renames the High-Risk Youth group (D) and calls it 
                Designated Community Resident (DCR).

                b.  Amends the statutory definition of a DCR to mean an 
                individual certified by the state workforce agency 
                (SWA) as having:

                        <bullet>  attained age 18 but not 40 on the 
                        hiring date, and
                        <bullet>  his/her principal place of abode 
                        within an Empowerment Zone (EZ), Renewal 
                        Community (RC), or Rural Renewal County (RRC).

          Eligibility Determination of DCRs. Eligibility determination 
        of a new hire as a member of the DCR target group involves 
        verification of the following two requirements: 1) age; and 2) 
        location of the individual's principal place of abode 
        [residence] in an EZ, RC, or RRC. Age should be verified by 
        looking at documents submitted by the employers/consultants 
        with the request or requiring from employers one or several of 
        the recommended documents in
        section E.

          Examples of Documentary Evidence., p. VII-32 of the November 
        2002, Third Edition, ETA Handbook 408. Verifying the 
        residential location of a potential DCR as in an EZ, RC, or RRC 
        requires reviewing the instructions for IRS Form 8850. EZs, RCs 
        and RRCs are all listed in these IRS instructions. SWAs can 
        verify whether a DCR's address is located in a Rural Renewal 
        County online by visiting the following Web site at: 
        www.usps.gov and following these simple steps: 1) click on Find 
        a ZIP Code; 2) enter and submit the Address and ZIP Code; and 
        3) click on Mailing Industry Information. SWAs should download 
        and print the U.S. Postal Service (USPS) Mailing Industry 
        Information sheet, and keep a copy in the case file of the new 
        hire, employer, or consultant.

                c.  Limits ``qualified wages'' for Designated Community 
                Residents to those paid for services performed while 
                the individual is residing in an EZ, RC, or RRC.

                d.  Defines a Rural Renewal County as a county that:

                        <bullet>  is outside a metropolitan statistical 
                        area (MSA) as defined by the Office of 
                        Management and Budget (OMB); and
                        <bullet>  during the 5-year periods, 1990 
                        through 1994, and 1995 through 1999, had a net 
                        population loss.

                e.  Clarifies that ``ticket holders'' are included in 
                the vocational rehabilitation referral target group by 
                adding at the end of its statutory definition the 
                following clause:

                        <bullet>  an individual work plan developed and 
                        implemented by an Employment Network pursuant 
                        to Subsection (g) of section 1148 of the Social 
                        Security Act with respect to which the 
                        requirements of such Subsection are met.

                f.  Expands the definition of the ``Qualified Veteran'' 
                target group to include ``disabled veterans'' who are 
                entitled to compensation for a service-connected 
                disability and:

                        <bullet>  have a hiring date which is not more 
                        than 1 year after having been discharged or 
                        released from active duty in the Armed Forces 
                        of the United States; or
                        <bullet>  have aggregate periods of 
                        unemployment during the 1-year period ending on 
                        the hiring date that equal or exceed 6 months.

                g.  Defines the terms ``compensation'' and ``service 
                connected'' as having the meanings under Section 101 of 
                Title 38 of the United States Code, pertaining to 
                veterans benefits as follows:

                        <bullet>  Section 101(13) defines 
                        ``compensation'' as a monthly payment made by 
                        the Secretary to a veteran because of a 
                        service-connected disability; and
                        <bullet>  Section 101(16) defines ``service-
                        connected,'' with respect to a disability, as 
                        meaning that the disability was incurred or 
                        aggravated in the line of duty in the active 
                        military, naval, or air service.

                h.  Increases the amount of ``qualified wages,'' for 
                disabled veterans only, from $6,000 to $12,000.

    5.  Program Administration. Under the reauthorizing legislation, 
SWAs certification and program operation responsibilities for the 
consolidated WOTC program remain the same as those described in the 
November 2002, Third Edition of ETA Handbook 408 and the May 2005 
Addendum. These include procedures for: a) determining target group 
eligibility and issuing certifications and denials; b) establishing 
working partnerships with different participating agencies at the state 
and local levels for resolving technical issues and issuing conditional 
certifications; c) conducting verification activities; d) complying 
with quarterly report responsibilities; and e) complying with records' 
retention time periods.

    6.  IRS Form 8850. IRS Form 8850, Pre-Screening Notice (PSN) and 
Certification Request for the Work Opportunity Credit, and the 
instructions for this form have been revised. The June 2007, PSN form 
and its instructions are available at www.irs.gov.

    7.  Funding. ETA issued Fiscal Year (FY) 2007 funding advances from 
Continuing Resolutions (CRs) to the SWAs for WOTC Program 
implementation and elimination of existing backlogs. The CR advances 
covered activities through February 15, 2007. Funding for the merged 
WOTC Program was passed as part of the FY 2007 funds appropriated in 
the Revised Continuing Appropriations Resolution Act of 2007 (P.L. 110-
5).

    8.  Reporting Authority. Pursuant to the Paperwork Reduction Act, 
OMB extended the information collection requested for the WOTC/WtWTC 
administrative and reporting forms without substantial changes. ETA 
Form 9058--Report 1 and administrative forms 9057, 9059, 9061-9063, and 
9065 are approved under OMB No. 1205-0371 through August 31, 2009. SWAs 
should continue to use the current certification and reporting forms 
until further notice. A package including revised reporting and 
administrative forms, the Spanish versions of IRS Form 8850 and ETA 
Form 9061, the revised May 2005 Addendum to ETA Handbook 408 (the 
Handbook), and a revised Technical Assistance and Compliance Review 
Guide will be submitted to OMB for emergency clearance. Training on 
WOTC program amendments, provisions, and new reporting and 
administrative requirements is being planned and will be provided.

    9.  Action Required. SWA administrators are requested to:

                a.  Provide this information to appropriate program 
                staff, employers, and their representatives, 
                participating agencies (PAs), and other interested 
                partners. They are to ensure that the SWAs and PAs 
                administer the WOTC in accordance with the guidance 
                provided in this TEGL, the Handbook, the May 2005 
                Addendum to the Handbook, and the Internal Revenue Code 
                1986, Section 51, as amended; and

                b.  Ensure that state coordinators receive a copy of 
                the new legislation, Title VIII, Part I., Subpart A., 
                section 8211 of the Small Business and Work Opportunity 
                Tax Act of 2007 (P.L. 110-28) available at http://
                thomas.loc.gov/home/thomas2.html.

    10.  Inquiries. Direct all questions to the appropriate Regional 
Coordinator.

------------------------------------------------------------------------

------------------------------------------------------------------------
RESCISSIONS                              EXPIRATION DATE:
None                                     Continuing
------------------------------------------------------------------------


                                 <F-dash>
                 Prepared Statement of R. Keith Pedigo,
        Associate Deputy Under Secretary for Policy and Program
             Management, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to provide the Department of Veterans Affairs' (VA) views on 
pending legislation. Accompanying me is Diane Hartmann, Director of 
National Programs and Special Events. VA is still reviewing H.R. 6221, 
H.R. 6225, and 6272 and will provide views on those bills in a 
subsequent views letter.

                               H.R. 2721

    H.R. 2721, would require the Secretary of Veterans Affairs to 
develop, and the Secretary of Defense to distribute to members of the 
Armed Forces upon their discharge or release from active duty, in a 
compact disk read-only memory format, information that the Secretary of 
Veterans Affairs determines would help veterans. That information would 
include the benefits for which veterans may be eligible under the laws 
administered by the Secretary of Veterans Affairs, a comprehensive 
explanation of how to apply for benefits, and a list of all VA 
facilities and contact information for them. The bill would also 
require the secretaries of Veterans Affairs and of Defense, along with 
the head of any other relevant government agency, to maintain an 
Internet website with information clearly explaining VA benefits, how 
to secure those benefits, and how veterans' family members may request 
copies of the compact disk.
    VA supports this bill. VA recognizes the importance of providing 
benefit information to separating servicemembers and their families. 
This bill would support expansion of VA's extensive outreach efforts.
    We estimate at least 250,000 compact disks would be needed each 
year to provide one to every separating servicemember. An additional 
50,000 copies would be needed to provide upon request. At an estimated 
cost of $1.00 per copy, which would include distribution costs to each 
service, the total cost for all copies would be $300,000 annually.

                               H.R. 3786

    H.R. 3786, the ``Servicemembers Telecom Contract Relief Act,'' 
would amend the Servicemembers Civil Relief Act to permit 
servicemembers to terminate certain telecommunications contracts before 
their expiration if the contract was entered before the servicemember 
entered service or received permanent change-of-station orders or 
deployment orders.
    Because this bill if enacted would affect active-duty 
servicemembers, we defer to the Department of Defense (DoD) regarding 
the merits of H.R. 3786.

                               H.R. 4255

    H.R. 4255, the ``United States Olympic Committee Paralympic Program 
Act of 2007,'' would authorize the Secretary of Veterans Affairs to 
make a grant to the U.S. Olympic Committee (USOC) to plan, develop, 
manage, and implement the Paralympic program for veterans and members 
of the Armed Forces. It also would require the Secretary to inform all 
veterans with physical disabilities about the existence of the 
Paralympic program and to encourage their participation, as well as 
require the Secretary to ensure access to and appropriate use of VA 
facilities by program participants. VA opposes this bill because it is 
unnecessary, would divert funds intended for veterans' care to 
nonveterans, and would benefit only a limited number of veterans.
    VA has an established Office of National Programs and Special 
Events (ONPSE) that oversees highly successful and well-attended 
national rehabilitative programs for disabled veterans. This office 
already works with the USOC to help elite-level athletes compete in 
their Paralympic programs. ONPSE currently oversees four national 
events: National Disabled Veterans Winter Sports Clinic, National 
Veterans Wheelchair Games, National Veterans Golden Age Games, and 
National Veterans Creative Arts Festival. Also, a pilot summer sports 
clinic, scheduled for September 28 through October 3 in San Diego, 
California, is specifically designed for veterans with amputations, 
traumatic brain injuries, burn injuries, or post-traumatic stress 
disorder. The goals of these events are to reach disabled veterans 
during their recovery from traumatic injury or disease, introduce them 
to adaptive recreational activities, and challenge them with activities 
that give them a sense of accomplishment and enable them to redefine 
their capabilities. Veterans service organizations support these 
events, which, although they are open to all disabled veterans who meet 
the eligibility criteria, are particularly geared toward first-time 
participants. Each year, thousands of disabled veterans have the 
opportunity for self-development through participation in these events.
    Certain provisions in H.R. 4255 are prescriptive, such as requiring 
VA to notify all veterans with physical disabilities about the 
existence of the Paralympic program and to encourage their 
participation. Under this provision, VA would have to notify and 
encourage the participation of catastrophically injured veterans, who 
cannot participate in these events. VA currently allows the USOC to 
distribute materials about the Paralympic program at any of VA's ONPSE 
events. Additional notification is unnecessary.
    VA is particularly concerned by the provision that would grant 
access to VA facilities to all individuals--not necessarily veterans or 
servicemembers--participating in the Paralympic program. VA's resources 
should be limited to the medical rehabilitation of eligible veterans 
and not diverted to provide access to facilities for non-veterans.
    Further, H.R. 4255 would require VA to support a program that would 
benefit only a small number of elite athletes. Although we applaud the 
USOC's efforts to bring more veterans into their elite-athlete 
competitions, we believe VA's rehabilitative events are much better 
suited to providing the services veterans need. For example, last year, 
28 veterans participated in USOC programs as opposed to over 1,500 
veterans who participated in VA's Winter Sports Clinic, Wheelchair 
Games, or Golden Age Games. VA's programs are designed to include 
veterans of all ages and levels of impairment and are aimed primarily 
at medical rehabilitation.
    VA's goal is to introduce sports and recreation to disabled 
veterans and make it a part of their daily lives. Our existing 
partnership with the USOC allows those who rise to elite athletic 
performance to take their training to the next level through the USOC 
Paralympic program.
    We are in the process of estimating the costs that would be 
associated with enactment of this bill and will provide them for the 
record.

                               H.R. 6070

    H.R. 6070, the ``Military Spouses Residency Relief Act,'' would 
amend the Servicemembers Civil Relief Act to protect spouses of 
servicemembers from losing or acquiring domicile or residency for 
purposes of elections and taxation if the spouse is absent from a state 
because the spouse is accompanying a servicemember who is absent from 
the state in compliance with military orders.
    Because this bill if enacted would affect active-duty 
servicemembers and their spouses, we defer to DoD regarding the merits 
of H.R. 6070.

                               H.R. 6224

    H.R. 6224, the ``Pilot College Work Study Programs for Veterans Act 
of 2008,'' would require the Secretary to conduct a 5-year pilot 
project to test the feasibility and advisability of expanding the scope 
of certain work-study activities, to include work-study positions 
available on site at educational institutions. The positions in this 
program may include those in academic departments (tutors or research, 
teaching, and lab assistants) and in student services (positions in 
career centers, financial aid, campus orientation, admissions, records, 
and registration offices). The bill would require the Secretary to 
issue regulations providing for the supervision by VA personnel of 
these positions.
    While VA supports the principle of exploring the feasibility of 
expanding the scope of qualifying activities for the provision of work-
study allowances under 38 U.S.C. Sec. 3485, we do not support this bill 
because the types of activities now described in that section relate 
primarily to activities that support VA's mission of services and 
assistance to veterans and their dependents, whereas the types of 
activities proposed for evaluation apparently would not need to relate 
to that mission. In addition VA supervision of the work-study 
participants concerned would be administratively burdensome, given the 
breadth of the types of activities or functions that would be involved 
throughout a university.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
            Prepared Statement of Hon. Michael L. Dominguez,
     Principal Deputy Under Secretary of Defense for Personnel and
                 Readiness, U.S. Department of Defense

    Mr. Chairman and Members of this distinguished Committee, thank you 
for the opportunity to provide views on draft legislation. Our comments 
on one of the bills is below.
    H.R. 3786, the bill to amend the Servicemembers Civil Relief Act to 
allow individuals called to military service to terminate 
telecommunications contracts entered into before the individual 
receives notice of a permanent change of station or deployment orders.
    While the Department generally supports this provision, it needs 
additional clarification with respect to whom it applies. Section 
(b)(1) talks about entering military service under a call or order 
specifying a period of not less than 90 days. It is unclear if this 
refers to someone with no military status, as opposed to a reservist, 
who enters active duty. Those having no military status are not usually 
considered to be under a call or order to active duty.
    More importantly, this legislation is applicable to only those who 
receive orders for a permanent change of station (PCS) outside the 
continental United States or orders to deploy with a military unit for 
a period of 90 days to certain locations that do not support continued 
telecommunication service under contract. This excludes a person with a 
PCS move from Hawaii or Alaska into the Continental U.S. Also, the new 
legislation would not cover the PCS move from one point to another 
inside the Continental U.S., where the service could not be maintained.
    On H.R. 2721, we will submit a separate DoD-VA joint views letter. 
We are currently working with the VA in understanding the implication 
of this provision.
    We do not have comments on any other DoD-related proposed 
legislation (including H.R. 6070) and for those legislation that are 
VA-related, we defer to the Department of Veterans Affairs.

                                 <F-dash>
           Prepared Statement of Hon. Charles S. Ciccolella,
            Assistant Secretary for Veterans' Employment and
                   Training, U.S. Department of Labor

    Madam Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee:
    Thank you for the opportunity to submit for the record the 
following testimony to this Subcommittee on several bills and draft 
bills. I will address the bills in the order they are listed in your 
letter of invitation.

               H.R. 4255, United States Olympic Committee
                     Paralympic Program Act of 2007

    This bill would authorize the Secretary of Veterans Affairs to 
provide assistance to the Paralympic Program of the United States 
Olympic Committee among other purposes. We defer to the Department of 
Veterans Affairs (VA).

         H.R. 3786, Servicemembers Telecom Contract Relief Act

    This bill amends the Servicemembers Civil Relief Act to allow 
individuals called to military service to terminate telecommunications 
contracts entered into before the individual receives notice of a 
permanent change of station or deployment orders. We defer to the 
Department of Defense (DoD) and the Federal Communications Commission.

                          H.R. 2721 (no title)

    This bill amends title 10, United States Code, ``to require the 
Secretary of Veterans Affairs to develop, and the Secretary of Defense 
to distribute to members of the Armed Forces upon their discharge or 
release from active duty, information in a compact disk read-only 
memory format that lists and explains the health, education, and other 
benefits for which veterans are eligible under the laws administered by 
the Secretary of Veterans Affairs.'' We defer to DoD and VA.

            H.R. 6070, Military Spouses Residency Relief Act

    This bill amends the Servicemembers Civil Relief Act to guarantee 
the residency of spouses of military personnel. We defer to DoD.

             H.R. 6272, SMOCTA Reauthorization Act of 2008

    This bill reauthorizes the Service Members Occupational Conversion 
and Training Act (SMOCTA) of 1992. In addition to the authorized 
funding levels contained in the original Act, the bill further 
authorizes appropriations in the amount of $60 million annually for 
fiscal years 2009 through 2018. This reauthorization impacts Sec. 1143, 
title 10 U.S.C. SMOCTA was originally authorized by P.L. 102-484.
    The original version of SMOCTA was implemented jointly by DoD, VA, 
and the Department of Labor (DoL). The program was authorized in title 
10 U.S.C. (DoD), and funded through DoD appropriations. SMOCTA was 
initiated during a time when the military was downsizing its active 
duty force. Military personnel who soon would be veterans as a result 
of this downsizing were targeted as the population to be served. 
Military personnel who had no readily transferable skills were the main 
focus.
    SMOCTA established a veterans' job training program that became 
effective October 23, 1992. The program was carried out by payments to 
employers who employed and trained eligible persons. Employers had to 
apply to VA for approval of a training program. When a program was 
approved by the VA regional office of jurisdiction, that office 
furnished the employer an approval letter.
    SMOCTA provided assistance in the form of reimbursements to 
employers with approved programs to offset the cost of training 
provided to recently separated servicemembers for stable and permanent 
positions that involved significant training (6-18 months). Besides the 
reimbursements to employers, SMOCTA provided funds for assessments, 
development of training plans and supportive services for the trainee. 
Disabled Veterans' Outreach Program Specialists and Local Veterans' 
Employment Representatives developed employment and training plans and 
assisted in the recruitment, referral and placement of those 
individuals.
    DoL believes that this program has been superseded by other 
initiatives to provide employment and training assistance, such as the 
services offered by the Workforce Investment Act 1998 (WIA), and the 
Jobs for Veterans Act that mandates a priority of service for veterans 
in WIA programs and in all other DoL funded employment and training 
programs.
    WIA provides individuals more training choices and greater control 
over their training. WIA offers comprehensive employment services, 
including job counseling, job search and referrals, resume preparation, 
and other assistance. It also provides intensive training through 
community colleges and other training providers for those who need 
skills or need to change or upgrade their skills. These services are 
easily accessed through WIA's network of more than 3,000 One-Stop 
Career Centers operated by states and local governments nationwide. 
Innovative programs such as ``Helmets to Hardhats'' have been training 
returning veterans in skilled construction trades. Returning veterans 
are also eligible for VA veterans' education assistance.
    The VETS Transition Assistance Program (TAP) provides information 
to veterans about these programs and resources prior to their discharge 
from the service.
    Today's military is highly trained and skilled. Their overall lower 
than average unemployment rates are a testament to employers' positive 
attitudes toward employing this generation of veterans. We are hearing 
from employers that they want to hire today's veterans because they see 
them as a valuable resource to their enterprises.

        H.R. 6221, Veterans-Owned Small Business Protection and
                       Clarification Act of 2008

    This bill would require the Secretary of Veterans Affairs to 
include in each contract entered into by the VA for the acquisition of 
goods and services a provision that requires the contractor to comply 
with the contracting goals and preferences for small business concerns 
owned or controlled by veterans. We defer to VA.

         H.R. 6225, Injunctive Relief for Veterans Act of 2008

    The bill amends section 4323(e) of title 38, U.S. Code, to require 
that injunctive relief and other equitable remedies under the Uniformed 
Services Employment and Reemployment Rights Act be granted by courts at 
their discretion in appropriate cases. The Department of Labor has no 
objection to the provisions of this bill.
H.R. ------, Pilot College Work Study Programs for Veterans Act of 2008
    This bill directs the Secretary of the Department of Veterans 
Affairs to conduct a 5-year pilot project to test the feasibility and 
advisability of expanding the scope of certain qualifying work-study 
activities under title 38, United States Code. We defer to VA.
    That completes my testimony, and I would be happy to provide 
responses to questions for the record.

                                 <F-dash>
              Prepared Statement of Rebecca Noah Poynter,
       Owner, OnPoynt Communications, Dallas, TX, and Co-Founder,
                  Military Spouse Business Association

    I am Rebecca Noah Poynter, an Army wife, owner of OnPoynt 
Communications and a co-founder of the Military Spouse Business 
Association, www.milspousebiz.org. I am a writer and often address 
military family topics in national publications including The 
Washington Post and The Military Times.
    Under the Soldiers' and Sailors' Relief Act which became Federal 
law in 1940, military members are allowed to declare a permanent state 
of residency while on active duty. Under the law, a servicemember can 
claim a single permanent state of residency or ``home state'' for the 
duration of his or her military service. The spouse who is not covered 
under this law, must change residency with each move to a new state. On 
average military families move every two to three years.
    As the wife of a U.S. Army soldier, changing residency and not 
sharing a home state with my husband, has been an inconvenient, 
confusing and expensive burden. The total cost is being paid by nearly 
one million active duty military spouses in time, money and income. 
This is not by choice either, as it is our spouses, the servicemembers, 
who are ordered to move by the military. By constantly moving, military 
spouses regularly sacrifice personal choices and professional 
aspirations to achieve the mission assigned. In addition to these 
sacrifices, military spouses are unfairly and repeatedly penalized by 
having to comply with state residency and tax requirements.
    Each time a military spouse moves to a new state she must obtain a 
driver's license at a cost, re-register her car for a couple of hundred 
dollars; and figure out how, when and for whom to vote in the new 
state. She is not able to have consistent Congressional representation 
nor is she likely to share the same representative as her spouse.
    Additionally the majority of military spouses, nearly 70 percent, 
are employed or seeking employment (because of a move). If their next 
military assignment is to a high income tax state as compared to the 
last one, then income can be reduced by as much as 10 percent.
    Through my association with Military Spouse Business Association, a 
nationwide networking organization established for military spouses who 
own their own and obviously portable businesses, I met several spouses 
including Navy spouse, Joanna Williamson, who were also frustrated with 
administrative and state tax burdens that accompanied every move. 
Hearing their stories and knowing my own, it was time as military 
spouses to engage in ``a joint mission'' for the betterment of our own 
lives.
    We took the issue to Congressman John Carter who represents Fort 
Hood, the largest military installation in the United States. He said 
it was up to Congress to look after our military families and it just 
didn't sound fair for married couples to have to reside in different 
states nor did the administrative and financial burdens on military 
spouses seem necessary.
    In May, Congressman Carter introduced the Military Spouses 
Residency Relief Act, H.R. 6070. The bill extends to spouses the option 
of a permanent state residency as provided to the servicemember, 
essentially offering us a home state too.
    Military spouses bear the burden of handling the challenges 
associated with the constant moving of military life. Here are a few 
examples based on the 92 percent likelihood that the spouse is a 
female: While he can register the car in his home state, she can't. He 
votes in his home state, she votes in the one where they reside. She 
has a new congressman at each location; he keeps his familiar 
representative. He has one driver's license, which can be renewed by 
mail. She must stand in a long line at the state department of motor 
vehicles to obtain a new one and pay the fee. When the servicemember is 
deployed, the home front frustration amplifies. ``Honey, next time you 
have a break there in Iraq, please send me a copy of your military 
orders and your driver's license. And where is the power of attorney? I 
have to register the car.'' The Military Spouses Residency Relief act 
can eliminate these hassles.
    H.R. 6070 can also address the ``camouflage barrier'', my nickname 
for the financial strife the majority of us as employed spouses face 
with every move. A RAND Corp. study confirms the average spouse income 
shrinks by more than $5,500 annually as compared to a civilian 
counterpart because of moving. My encounter came on the last one; I was 
happily working for a big company when we got military assignment 
orders to relocate. I was thrilled to transfer my job at the same pay 
with the same employer to the new location. Then I discovered the new 
state has a high income tax and was shocked to find my income was more 
than $500 a month less. It really hurt our family's financial 
stability.
    With a single permanent state, employed military spouses may 
protect their income if they are moved to a high income tax state. For 
those with portable businesses or professions, a growing and positive 
trend among military spouses, a single home state can lessen 
administrative and tax burdens.
    Congressman Carter says of H.R. 6070, ``We're making the inter-
state moves easier on our military families since the reason they're 
moving is by order of the U.S. Government.'' Through the Military 
Spouses Residency Relief Act, Congress offers us the very things our 
Nation's military spouses have truly earned--equality, recognition, and 
common sense treatment.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      June 23, 2008

Mr. R. Keith Pedigo
Associate Deputy Under Secretary
for Policy and Program Management
Veterans Benefits Administration
U.S. Department of Veterans of Affairs
810 Vermont Ave, NW
Washington, DC 20420

Dear Mr. Pedigo:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on ``Pending Legislation'' 
on June 19, 2008, I would appreciate it if you could answer the 
enclosed hearing questions by no later then July 16, 2008.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.
            Sincerely,
                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                                 ______
                                 
        Questions from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                     Hearing on Pending Legislation
                             June 16, 2008

    Question 1: In the report from the Office of Inspector General for 
VA, it seems that the VA makes purchases for the Department of Defense. 
Yet the VA has a memorandum of agreement with the Department of the 
Army to have the Army do purchases for the VA. Why is that?

    Response: Additionally, VA has a need to obtain acquisition support 
for construction contracts at the field level. As a result, VA entered 
into an agreement with the Army Corps of Engineers to utilize their 
services at the discretion of the VA field activity. The need is based 
on the increased volume of construction projects and limited resources 
to support their development and completion.

    Question 2: Do you have a rough number of disabled veterans who are 
taking advantage of these programs and approximately what percentage 
that might be of the total number of disabled veterans?

    Response: The number of veterans that participated in the national 
programs in FY 2007 was 1,638. An additional 3,000 veterans 
participated at the local level festivals for the Creative Arts.
    Veterans must be enrolled to participate in the national program; 
however, you do not need to have a disability to participate in the 
Golden Age Games or the Creative Arts Festival. As of January 2008, the 
total number of veterans receiving VA Disability Compensation is 2.9 
million; however, not all of these veterans are enrolled in the VA 
Healthcare System.

    Question 3: What is the travel cost for employees to attend 
recreational events?

    Response: Estimated travel costs for VA employees attending the 
five National Rehabilitative Special Events are $684,000. This is for 
360 employees who attend the five events as coaches and caregivers.
    Estimated travel costs for veteran participants to attend the five 
National Rehabilitative Special Events are $3,230,000. This estimate is 
based on 1,750 veterans.

    Question 4: What is the U.S. Department of Veterans Affairs' 
position on H.R. 6221, H.R. 6225, and H.R. 6272?

    Response: The views are included in the attached letter from 
Secretary Peake to Chairwoman Herseth Sandlin dated August 18, 2008.

    Question 5: In your written testimony you state that the U.S. 
Department of Veterans Affairs is currently in the process of 
estimating the cost for the enactment of H.R. 4255. Could you provide 
that cost estimate?

    Response: The Committee did not receive the costs for H.R. 4255, as 
introduced, since the provisions of that bill were included in S. 2162, 
which became Public Law 110-387 on October 10, 2008.

                                 <F-dash>

                                  The Secretary of Veterans Affairs
                                                    Washington, DC.
                                                    August 18, 2008

Hon. Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Madam Chairwoman:

    When Department witnesses testified at the Subcommittee's June 19, 
2008 hearing on eight bills, they promised to provide for the record 
VA's views on H.R. 6221, 6225, and 6272 as introduced. I do so in this 
letter.
    H.R. 6225 would amend the law regarding enforcement of certain 
veterans' rights with respect to State or private employers. As this is 
a matter within the purview of the Department of Labor, we defer to the 
views of that department.
    We defer to the views of the Departments of Labor and Defense with 
regard to H.R. 6272, which would authorize appropriations for the 
Service Members Occupational Conversion and Training Act of 1992. Those 
departments co-administer the ``SMOCTA'' program.
    We understand the purpose of H.R. 6221 to be that where VA enters 
into interagency agreements to have other executive agencies perform 
contracting actions on behalf of VA, any such agency would be required 
to comply with the service-disabled veteran-owned small business 
(SDVOSB) and veteran-owned small business (VOSB) contracting 
requirements of section 8127 of title 38. The bill as currently drafted 
would fail to achieve this purpose. Specifically, while the bill would 
require VA to include a clause in such interagency agreements that 
other agencies shall comply with section 8127, it fails to provide 
sufficient authorization for the other executive agencies to act on 
such a requirement notwithstanding their own statutory procurement 
authorities.
    Even if this were corrected, VA could not support this legislation 
for several reasons. First, it is unnecessary, because as documented by 
the Small Business Administration and VA's Office of Small and 
Disadvantaged Business Utilization, VA has achieved its SDVOSB and VOSB 
contracting goals this past fiscal year and has nearly reached them as 
of April 30, 2008, for the current fiscal year. Second, VA enters into 
such interagency agreements only when it lacks adequate acquisition 
staff to conduct needed procurements on a timely basis. VA is concerned 
that other agencies would balk at entering into interagency agreements 
with VA if they would be subject to VA-specific socio-economic 
requirements with which they lack familiarity. This could lead to 
situations where necessary VA contracts are not awarded or awards are 
delayed, negatively impacting VA's ability to administer its programs 
of benefits and service to veterans.
    Third, enactment of this provision could increase the costs of such 
contracts by limiting the pool of competitors. Also, the language of 
the bill contains unclear language relating to ``contracts'' with 
``other persons'' to acquire goods and services. VA is uncertain what 
this language is meant to address. As indicated above, VA enters into 
interagency agreements with other executive agencies to perform 
contract actions on behalf of the Department only when VA lacks 
sufficient acquisition capacity--it does not do so with individuals or 
private sector companies. Finally, VA is concerned with the retroactive 
nature of the bill that, if enacted, would apparently require pre-
existing agreements to be amended to reflect the change in law. The 
current text of the bill would require VA modify such agreements 
existing as of June 1, 2007, which is even prior to the effective date 
of section 8127 of title 38.
    VA remains strongly committed to SDVOSBs and VOSBs and that 
commitment is reflected in VA's small business contracting 
achievements. However well-intended, H.R. 6221's enactment would impede 
VA's ability to procure goods and services in a timely and cost-
efficient manner.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.
            Sincerely yours,
                                               James B. Peake, M.D.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       July 1, 2008

Mr. Charles Huebner
Chief, U.S. Paralympics
1 Olympic Plaza
Colorado Springs, CO 80900

Dear Mr. Huebner:

    Thank you for testifying before the house Veterans' Affairs 
Subcommittee on Economic Opportunity. As part of the hearing record, I 
am requesting your views on the following:

    1.  Please describe how the USOC/U.S. Paralympics intends to form 
partnerships with other organizations specializing in disabled sports. 
As part of your response, please include the names of organizations 
generally considered to be candidates for partnership.
    2.  Please expand on your statement regarding expanding Paralympic 
programs for disabled military personnel and disabled veterans. Would 
such an expansion include international events in which participation 
would be limited to disabled veterans and disabled military personnel? 
If so, what would be a nominal timeline and milestones to hold the 
first of such an event at the international level?

    Thank you for your prompt attention to this request.
            Sincerely,
                                                       John Boozman
                                                     Ranking Member
            cc: Steve Bull
                                 ______
                                 
                                                   U.S. Paralympics
                                               Colorado Springs, CO
                                                   October 24, 2008

The Honorable John Boozman
Congressman, The Great State of Arkansas
335 Cannon House Office Building
Washington, DC 20515

    Dear Congressmen Boozman, Thank you for your letter requesting 
information on how the USOC Paralympic Veterans Program is forming 
partnerships with other organizations and what our plans are to expand 
programs to international events with participation by international 
veterans.
    The U.S. Olympic Committee has built it's Military and Veterans 
program on the philosophy of partnership. This allows the USOC to 
collaborate with existing programs and develop new programs in areas of 
need. This is the most cost efficient model that will have the most 
impact in reaching a larger number of Veterans at the community level.
    Organizations that we currently collaborate with in terms of 
sharing expertise, equipment, and resources include:

    <bullet>  The Paralyzed Veterans of America;
    <bullet>  Disabled Sports USA and it's more than 89 chapters;
    <bullet>  The Lakeshore Foundation;
    <bullet>  The Department of Veteran Affairs and regional VA 
facilities;
    <bullet>  Warrior Transition Units;
    <bullet>  The Semper Fi Fund;
    <bullet>  The American Legion;
    <bullet>  BlazeSports Clubs; and
    <bullet>  The National Recreation and Parks Association and it's 
6,000 rec organizations.

    We also are forging new partnerships with USOC member organizations 
such as the YMCA and Boys and Girls Clubs.
    Each relationship is different based on opportunity and need.
    Currently, we are developing the 2009 program calendar which 
includes numerous events. A draft of the calendar is attached. As we 
speak, the USOC is hosting an event at our training center in Chula 
Vista that has participation from six soldiers from the United Kingdoms 
Battle Back program. This is the first program that has included 
international participation. We are looking to expand those 
opportunities in 2009.
    I hope this answers your questions. Again we appreciate your 
leadership in supporting veterans. The USOC and our partners are 
projected to provide services for more than 3,900 injured military 
personnel and veterans in 2008 with a focus on ensuring physical 
activity opportunities are available at the community level.
            Amazing Awaits,
                                                    Charlie Huebner
                                               Chief of Paralympics
                                     Secretary General, Paralympics

                                  <all>

</pre></body></html>
